<html>
<title> - THE LACK OF DIVERSITY IN LEADERSHIP POSITIONS IN NCAA COLLEGIATE SPORTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
THE LACK OF DIVERSITY IN LEADERSHIP POSITIONS IN NCAA COLLEGIATE SPORTS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2007

                               __________

                            Serial No. 110-7


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
35-220                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING,
  Vice Chairman                          Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                           Professional Staff

               Dennis B. Fitzgibbons, Chief of Staff
                Gregg A. Rothschild, Chief Counsel
                   Sharon E. Davis, Chief Clerk
              Bud Albright, Minority Staff Director

        Subcommittee on Commerce, Trade, and Consumer Protection

                 Subcommittee on Energy and Air Quality

                    RICK BOUCHER, Virginia, Chairman

CHARLIE MELANCON, Louisiana         J. DENNIS HASTERT, Illinois,
JOHN BARROW, Georgia                   Ranking Member
HENRY A. WAXMAN, California         RALPH M. HALL, Texas
EDWARD J. MARKEY, Massachusetts     FRED UPTON, Michigan
ALBERT R. WYNN, Maryland            ED WHITFIELD, Kentucky
MIKE DOYLE, Pennsylvania            JOHN SHIMKUS, Illinois
JANE HARMAN, California             JOHN B. SHADEGG, Arizona
TOM ALLEN, Maine                    CHARLES W. ``CHIP'' PICKERING, 
CHARLES A. GONZALEZ, Texas             Mississippi
JAY INSLEE, Washington              STEVE BUYER, Indiana
TAMMY BALDWIN, Wisconsin            MARY BONO, California
MIKE ROSS, Arkansas                 GREG WALDEN, Oregon
DARLENE HOOLEY, Oregon              MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York         SUE MYRICK, North Carolina
JIM MATHESON, Utah                  JOHN SULLIVAN, Oklahoma
                                    MICHAEL C. BURGESS, Texas


                                  (ii)

  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Barton, Hon. Joe, a Representative in Congress from the State of 
  Texas, opening statement.......................................     5
    Prepared statement...........................................     6
Burgess, Hon. Michael C., a Representative in Congress from the 
  State of Texas, opening statement..............................     9
Butterfield, Hon. G.K., a Representative in Congress from the 
  State of North Carolina, opening statement.....................     8
Hill, Hon. Baron P., a Representative in Congress from the State 
  of Indiana, opening statement..................................     9
Ross, Hon. Mike, a Representative in Congress from the State of 
  Arkansas, opening statement....................................     4
Rush, Hon. Bobby L., a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Schakowsky, Hon. Janice D., a Representative in Congress from the 
  State of Illinois, prepared statement..........................    11
Stearns, Hon. Cliff, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
Terry, Hon. Lee, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     7
Towns, Hon. Edolphus, a Representative in Congress from the State 
  of New York, opening statement.................................     6

                               Witnesses

Brand, Myles, president, the National Collegiate Athletic 
  Association, Indianapolis, IN..................................    14
    Prepared statement...........................................   111
Hill, Fitzgerald, president, Arkansas Baptist College, Little 
  Rock, AR.......................................................    26
    Prepared statement...........................................    86
Jackson, Jesse L., Sr. president, Rainbow/PUSH Coalition, 
  Chicago, IL....................................................    12
    Prepared statement...........................................    46
Keith, Floyd, executive director, Black Coaches Association, 
  Indianapolis, IN...............................................    28
    Prepared statement...........................................    50
Lapchick, Richard E., chair, DeVos Sport Business Management 
  Program, and director, Institute for Diversity and Ethics in 
  Sport, University of Central Florida College of Business 
  Administration, Orlando, FL....................................    30
    Prepared statement...........................................    61
Richardson, Nolan, former head basketball coach, University of 
  Arkansas.......................................................    32
    Prepared statement...........................................    72
Weiser, Tim, director of athletics, Intercollegiate Athletic 
  Agency, Manhattan, KS..........................................    33
    Prepared statement...........................................    68


THE LACK OF DIVERSITY IN LEADERSHIP POSITIONS IN NCAA COLLEGIATE SPORTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2007

                House of Representatives,  
                 Subcommittee on Commerce, Trade,  
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:40 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Bobby L. 
Rush (chairman of the subcommittee) presiding.
    Members present: Representatives Schakowsky, Butterfield, 
Barrow, Hill, Towns, Ross, Dingell [ex officio], Stearns, 
Whitfield, Terry, Burgess, and Barton [ex officio].

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. We are going to call this subcommittee to order. 
My opening statement will be reflected with these words. First 
of all, I would like the witnesses to please relocate, if you 
will, to the witness table there, Reverend Jackson and Dr. 
Brand. We will have opening statements from the members of the 
subcommittee and then that will be followed by opening 
statements from our witnesses and then we will have questions 
and answers from both entities.
    I want to remind members that our rules indicate that if 
you pass on your opening statement, that will give you 3 
additional minutes for questioning, and so we will proceed in 
that order.
    Today is the last day of February, the last day of Black 
History Month. Three and a half weeks ago, two African-American 
head coaches, Tony Dungy and Lovie Smith, made history and 
faced each other in Super Bowl XLI. Consequently, as the 
chairman of this subcommittee, I believe this hearing, our 
first of the 110th Congress, and its subject matter are very, 
very timely.
    For all of the success people of color have made in 
obtaining high-profile leadership positions in professional 
sports, similar progress in college athletics remains 
stubbornly elusive. Even though we have come to believe that 
sports is the one segment of American society that is 
colorblind, it seems that African-Americans and other 
minorities still face professional barriers and cannot achieve 
the levels of success that their white male counterparts enjoy. 
Today I hope to find out why this is the case and what has to 
be done.
    Currently there are only 16 people of color who are 
athletic directors of Division I-A college programs. Twelve are 
African-Americans, three are Latinos and one Native American. 
While roughly 25 percent of college basketball coaches are 
African-American, only seven of the 119 NCAA Division I-A 
college football teams have African-American head coaches. This 
homogeneity is actually more profound at the Division II and 
III levels. Indeed, overall, of the 616 football programs that 
are affiliated with the NCAA, excluding historically black 
colleges and universities, only 14--I repeat, only 14 are 
African-American. Similar numbers hold true for women's sports 
and the inclusion rates for Latinos and Asians are equally 
dismal.
    Lastly, it is worth noting that not a single commissioner 
of a Division I athletic conference is a person of color, not 
one. What is going on here? The usual excuse for such 
disparities is that as a result of social historical 
circumstances, African-Americans and people of color have not 
been in the job market long enough and haven't had enough time 
to build the requisite experience. This is an excuse that is 
profoundly in error as a general matter and it certainly 
doesn't hold any water in the sports marketplace. African-
Americans have a long-established and successful history in 
collegiate sports at the highest level and the talent pool for 
black head coach and athletic director candidates is 
overflowing with qualified candidates. There is simply no good 
excuse for this lack of diversity in the higher echelons of 
college athletics.
    I am fully aware of the cynicism that some of my colleagues 
on this committee have privately expressed about this hearing. 
I further realize that some members do not believe that this is 
a topic that is worthy of a congressional hearing. Quite 
frankly, I think this type of thinking is elitist and 
indicative of a sheltered and privileged mindset. For the 
record, let me state that I have sat through many hearings 
where I have been subject to, in my humble opinion, worthless, 
insulting and inane subject matters. Well, in my neck of the 
woods, we have a saying, ``What is good for the goose is good 
for the gander'', and with that stated, let me be clear, racial 
discrimination, intentional or unintentional, should always be 
the target of congressional inquiry no matter when and where it 
takes place. Moreover, I believe that racial and gender 
discrimination in the leadership ranks of college sports is 
especially worthy of our examination today.
    First, athletic scholarships are often the only way 
qualified students from disadvantaged backgrounds can obtain a 
college education. A large percentage of these student-athletes 
are minorities and it is extremely important that these young 
men and women have access to role models and mentors who 
reflect their diverse background.
    Second, and just as importantly, NCAA college sports is 
literally a multibillion dollar business. Cable and television 
broadcast rights, merchandising, advertising revenues, these 
are all cash cows that have turned college athletics, 
particularly football and basketball, into commercial 
juggernauts that make up an integral part of our popular 
culture. It is interstate commerce in its purest sense. The 
fact that a sizable portion of this billion-dollar revenue 
stream is being generated by minority student-athletes but 
minorities are not part of the upper tier of strategic and 
decision-making leadership roles presents a disturbing two-tier 
situation that should raise a lot of eyebrows and a lot of 
tough questions.
    Finally, let me thank our distinguished panelists who are 
here before us today. All of them have done a great job of 
raising this issue in the public arena, promoting awareness and 
spurring lively discussion. It is my sincere hope that today's 
subcommittee hearing with our distinguished guests will shed 
light on a problem that has plagued not only college sports but 
society for far too long. Indeed, sunshine is often the best 
disinfectant. On this last day of Black History Month, let us 
hope that the sunshine of this hearing moves us one step closer 
even if the step is a small step to a truly colorblind society 
and make America better for all of us.
    Thank you, and I yield back the balance of my time. I want 
to now recognize my distinguished colleague from the State of 
Florida, the minority ranking member of this subcommittee, Mr. 
Stearns, for 5 minutes.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE Of FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman, and I appreciate your 
calling this hearing and continuing the tradition of this 
subcommittee to use our jurisdiction to examine sports issues, 
which we did many times when I was chairman. You and I have 
worked together on other issues in telecommunication and I look 
forward to working with you on this. We have worked on previous 
sports issues and I think we have an opportunity to continue 
this history.
    I would like to take a moment and welcome three new members 
to my side of the aisle. One is J. Dennis Hastert, who is the 
former Speaker of the House, is now on our subcommittee. I am 
very proud and pleased that we will have his participation, his 
leadership and his wisdom. Vito Fossella from New York is also 
a new member to this committee, and Sue Myrick from North 
Carolina, so I welcome these there new members.
    Mr. Chairman, this is not the first time this subcommittee 
has examined issues that affect collegiate sports. In the last 
Congress, we examined the prevalence of steroids and other 
performance-enhancing drugs and the policies to keep them out 
of the sports arena at the professional and collegiate level. 
Before that we looked at a variety of issues affecting amateur 
sports including commercialism and the welfare of student-
athletes. We also worked in a bipartisan manner to move 
legislation regarding the conduct of unscrupulous sports agents 
who targeted collegiate athletes. I know my colleague from 
Tennessee had his bill. We had a hearing on it. We were very 
successful in getting it through the sub and full and through 
the House. This bill was finally enacted into law and it 
started at this subcommittee.
    Today's hearing should seem out of place in the year 2007. 
I think a lot of people are quite surprised but I agree with 
you: we should be looking at the numbers. You have given some 
valid statistics here when you talk about 119 Division I 
schools, and out of that six are African-Americans and one are 
Latino, and those are something worth looking at and 
understanding why this happened. But looking at the numbers, it 
is hard to come up with any plausible reason why there are so 
few minority head football coaches and other leadership 
positions at NCAA schools, particularly in light of the fact 
that we had two African-American coaches in the NFL Super Bowl, 
showing the competence and the qualification of these 
individuals. Surely, surely, it should also be seen that this 
expertise is available in the Division I schools.
    There are other areas that we can talk about. I think the 
chairman has also given many statistics to point out that there 
is a lot of work for Dr. Brand and the NCAA to work in and yet 
at the same time they have been pressuring universities such as 
the University of Illinois to change their nickname and mascot 
and I think that perhaps is one area he could work at but I 
think there is much more broader areas where he could use his 
influence, and I would suggest that he look at that too.
    Another question, I think, Mr. Chairman, what are the 
benefits and pensions for these NCAA coaches? Does the NCAA 
have any say-so? Can they help out? There are a lot of coaches 
that are making a lot of money but what about those coaches 
that are not? So there is a host of questions that we can ask 
today and I look forward to the hearing, and I appreciate your 
calling it.
    With that I yield back.
    Mr. Rush. Mr. Ross is recognized for 5 minutes.

   OPENING STATEMENT OF HON. MIKE ROSS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Ross. Thank you, Mr. Chairman, for holding today's 
hearing on the lack of diversity in leadership positions in 
NCAA collegiate sports. I would also like to thank the panel of 
witnesses who have joined us here today, especially two from my 
home State of Arkansas, Dr. Fitz Hill and Coach Nolan 
Richardson, both from Arkansas. Both Dr. Hill and Coach 
Richardson have made tremendous contributions to collegiate 
sports and are well qualified to speak on today's topic.
    As we know, Coach Richardson was a college basketball coach 
at the University of Arkansas where he was the winningest coach 
in Razorback history, compiling a 389-169 record in 17 seasons. 
Coach Richardson gained national recognition by taking the 
Razorbacks to three Final Four appearances in the 1990's 
including winning the NCAA national championship title in 1994 
when he also took home Coach of the Year honors. Coach 
Richardson is also the only head coach to win a junior 
collegiate championship, the NIT Tournament and the NCAA 
Tournament. Coach Richardson's successful career in coaching 
has truly been an example that has paved the way for some 
African-Americans in the ranks of coaching but not nearly 
enough.
    Dr. Hill, who is currently president of Arkansas Baptist 
College, received his degrees in communications and physical 
education from Washita Baptist University in 1987. In 1989 he 
was hired to become an assistant football coach for the 
Arkansas Razorbacks. He went on to serve on the Razorback staff 
for five different head coaches over a period of 12 years but 
perhaps the most important reason that Dr. Hill is here is 
because in May 1997 he was awarded the doctorate of education 
degree from the University of Arkansas where his doctoral 
dissertation was entitled ``Examining the Barriers Restricting 
Employment Opportunities Relative to the Perceptions of 
African-American Football Coaches at NCAA Division I-A Colleges 
and Universities.'' Dr. Hill is now working on his first book 
related to racial disparities in NCAA coaching, and I look 
forward to reading it. I believe we will all be able to learn 
from it, Dr. Hill.
    I am pleased that both these remarkable men who have 
contributed so much to the State of Arkansas are here today to 
share their perspectives on racial disparities in the NCAA 
collegiate sports, and I believe, Mr. Chairman, that we can 
certainly learn from both of these fine men from my home State 
of Arkansas.
    Mr. Rush. I recognize the former chairman of the full 
committee, Mr. Barton.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman. I listened with some 
pain to Mr. Ross's accolades to Coach Richardson. As a Texas A 
& M graduate and devotee of the late Shelby Metcalf, who 
coached the Aggies for many years, I was on the wrong end of 
many of those victories that you just talked about, but I 
understand that we have to boost the home team.
    It is good to have the father of a famous son with us today 
in our presence. It is good to know where the chip off the old 
block gets some of his pizzazz from, so we are glad to have the 
Reverend Jesse Jackson here.
    I am going to put my opening statement in the record, Mr. 
Chairman, but I want to put one thing to rest that you said in 
your opening statement. Unequivocally, the minority supports 
you holding this hearing without reservation. I too have sat 
through many inane hearings, some of which I called myself, 
and----
    Mr. Rush. I know.
    Mr. Barton. So let us just get the record straight: The 
minority supports this hearing. It is a serious issue when at 
this stage of our great Nation's history there are as few 
minority professional head coaches and athletic directors and 
administrators in the NCAA. It is a worthy hearing. I don't 
know what the remedy is. I will reserve the right on being 
supportive of whatever legislative, if any, remedy but we are 
absolutely committed to supporting you in holding this hearing, 
and if it needs to be a series of hearings, we will be very 
supportive of that.
    I come from Waco, Texas. I was in the first integrated high 
school in Waco. I was a 6-year athletic starter in football and 
baseball, lost my starting position to a young athlete who 
happened to be African-American for the simple reason he was 
better than I. He was a better player. And when the coach came 
to me and said, ``Are you OK with that, Barton?'' I said, 
``Well, I wish I was 20 pounds heavier and about a second 
faster and then I wouldn't be OK with it, but he is a better 
player.'' So I don't talk about my athletic prowess because I 
wasn't very proud.
    Mr. Rush. You said you played for 6 years. Did you flunk?
    Mr. Barton. Well, no. I got to play football because I was 
the only one they thought was smart enough to read the hand 
signals and they didn't understand that I was blind as a bat so 
I couldn't see them anyway, but that is a different story. But 
we are very supportive of you holding these hearings, and if 
there is something we can do to support some changes in NCAA, 
we will be supportive of that also, and with that, I yield 
back.
    [The prepared statement of Mr. Barton follows:]

  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas

    The purpose of this hearing is to explore the diversity in 
athletic directorships and head coaching in NCAA collegiate 
sports. The Subcommittee on Commerce, Trade, and Consumer 
Protection has a strong bipartisan history in many areas, 
including investigations on various issues in both professional 
and collegiate sports.
    We all agree that many professional and collegiate athletes 
are role models for young people, but our aspiring young 
athletes should also have people to whom they can look to for 
guidance and advice. Role models are important in terms of 
shaping an athlete's professional and personal futures. To the 
extent we can encourage diversity in positions providing role 
models to our young athletes, we should.
    I thank the distinguished witnesses with us today for 
participating and sharing their views. It is important we have 
a full and open debates on this and many other issues affecting 
all competition levels of athletics.

    Mr. Rush. The next member recognized will be Mr. Towns of 
New York for 5 minutes.

 OPENING STATEMENT OF HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Towns. Let me thank you very much, Mr. Chairman, for 
holding this hearing and to say to you that I will not take the 
entire 5 minutes but I want you to know that when we started 
talking about the student-athlete's right to know, there was a 
lot of criticism as well. At that particular time students were 
not graduating, they were playing 4 years and then going back 
home with no degree and people said that we should not be 
involved in this and didn't think that Congress should 
entertain, but as a result of our involvement now, the 
graduation rate has increased tremendously and that the 
graduation rate among student-athletes is now higher than the 
student body and that is basically because of the student-
athlete's right to know.
    Now, in the meantime, a lot of people did not support it 
then and of course felt that we should not be involved. Well, I 
want to encourage you to be involved because the issue that you 
are dealing with now is about fairness. That is what we are 
talking about, fairness, and I think that if the Congress is 
not going to be about fairness, then what is the Congress going 
to be about? So I am hoping that you will continue to look at 
this issue and let us begin to bring people in and talk about 
it and recommend a fix, and of course, if it is not fixed, 
there is a lot of legislative things that can be done that can 
fix it, and as we continue to talk to experts, people who have 
been involved in the business, we will be able to get 
information from them and use that to be able to. I just would 
hope that we would not move too quickly. We want to make 
certain that we have enough information and bring experts in, 
and once we get that information, I think to take action, and 
let us face it, you are always going to be criticized.
    You have to understand, there are people out in the world 
that all they do is criticize. They specialize in criticism. I 
have heard stories of whole families that all they do is just 
criticize. The great-granddaddy is a criticizer, the 
granddaddy, all the grandchildren, and the story goes that a 
lady married into the criticizing family and of course she 
thought that she would be able to stop this fellow from 
criticizing and that she was doing all she could to stop him, 
and the story goes that he came downstairs one morning and she 
is trying to be helpful and stop him from criticizing. She 
said, would you like to have breakfast, and of course he said 
yes, I would like to have breakfast. So what would you like to 
have. He said I would to have two eggs, I would like to have 
one boiled and one fried and I want it in front of me in 7 
minutes. So she ran over to the stove, brought it back in front 
of him. He looked at it, he said there you go again, you fried 
the wrong egg.
    So, Mr. Chairman, you are always going to have folks that 
are going to criticize you. Don't worry about that. Just do 
what you have to do on behalf of the people of this Nation, and 
this is an issue that we should not ignore. This is an issue 
that we should deal with because a lot of folks are on the 
outside because of unfairness.
    Mr. Rush. I recognize Mr. Terry for 5 minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. I do appreciate that 
you are holding this hearing today. I do think this is a 
legitimate issue when you have out of 119 Division I colleges 
only eight minority representatives as head coaches, and 
frankly, I think University of Nebraska, although we don't have 
a African-American or minority head coach, our former coach, 
Tom Osborne, did a good job of grooming Tony Samuels and one of 
my classmates and a friend, Turner Gill, to be head coaches, 
and maybe that is the way we can look at this.
    I do want to say a couple of things that were not part of 
my thoughts when I walked in here today, and that is the 
discussion about criticism of holding this hearing. Frankly, I 
hadn't heard any criticism of holding this hearing. The folks I 
have talked to on our side, no one that I know of has said 
anything negative about holding this hearing, in fact, that it 
is a very legitimate issue and frankly we kind of enjoy 
bringing NCAA folks in here and exercising our jurisdiction in 
that way. So I compliment you on doing that, and I certainly 
would not associate with any potential criticism out there. I 
want to say it is legitimate.
    There is one thing I would say that is not related to the 
subject matter that is a criticism. I am sure it is 
unintentional, by all means, but the Republican Conference is 
held every Wednesday from 9 to 10 so holding a hearing at 9:30 
forced the Republican side to have to choose between attending 
their weekly conference or attending the hearing. Obviously I 
chose the hearing over the conference but I would appreciate if 
we didn't have to have that conflict in the future, and I yield 
back.
    Mr. Rush. That is another boiled egg/fried egg kind of 
criticism. Mr. Butterfield is recognized for 5 minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman, and I 
too would like to thank you for convening this very important 
hearing today. I would also like to thank the two witnesses for 
joining us, the Reverend Jesse Jackson, whom I have known for 
at least 30 years, probably more, and Dr. Brand. Thank you both 
very much for coming to be with us today.
    I am probably, Mr. Chairman, the only one except for maybe 
Congressman Towns, who remembers when Reverend Jackson played 
football at A & T College in Greensboro, North Carolina. That 
was many years ago, but he was certainly not only a 
distinguished student but a distinguished athlete as well.
    Mr. Chairman, we just saw the Super Bowl on television the 
other day and it was certainly an extraordinary event. It was a 
remarkable milestone that we had two African-American head 
coaches who met for the first time in the Super Bowl. It 
highlights the fact, Mr. Chairman, that African-American 
coaches can compete at the highest professional level and win 
at the highest level. I am hopeful that this historical event 
opens the door even wider for even more minority coaches. 
Hopefully it is a clear signal that race is becoming less and 
less of an issue for teams at the highest level.
    One of the ways the NFL has tried to deal with a lack of 
diversity among head coaches is the so-called Rooney Rule where 
minority candidates must be considered and interviewed for open 
jobs. Seeing Dungy and Smith coach against one another in the 
Super Bowl and the Giants' recent hiring of Jerry Reese, the 
NFL's third black general manager, could lead to suggestions 
that progress is being made quickly. Although it is a start, 
there is still a long way to go at all levels before we reach a 
time when diversity and equal opportunity exist for all.
    Outside of the historically black colleges and 
universities, there are only 16 African-American head football 
coaches among all of the colleges in Divisions I, II and III. 
That is just 16, I repeat, 16 out of 616 programs across the 
country. During the 2006 season, only five of the Nation's 
Division I-A college football programs were led by black 
coaches. They accounted for just 4 percent of the coaching jobs 
while black players make up 46 percent of Division I football 
players. There are also just five black athletic directors at 
Division I-A schools and just four of the Nation's 119 schools 
have black presidents, and the number of black coaches is 
growing so slowly that at the current rate we will be closing 
in on the next century before we near representation or 
diversity. Mr. Chairman, this is unacceptable, it must change, 
and I want to thank the chairman for his vision. You have 
talked with me privately and you have told me where you want to 
take this subcommittee, and I appreciate your leadership very 
much.
    I yield back.
    Mr. Rush. Thank you. Mr. Burgess is recognized now for 5 
minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Thank you, Chairman Rush. Thank you for 
holding this hearing. Thanks to the witnesses for giving up 
their time to be with us today. I know it is painful to listen 
to opening statements from all members but I will be very, very 
brief.
    Mr. Chairman, I just wanted to point out, this also is my 
first hearing on this subcommittee. I know it just seems like I 
have been over here and been a problem for a lot longer but 
this is indeed my first hearing on this subcommittee. I hope 
that through the leadership and dedication of this subcommittee 
we can make some real and lasting impacts for the next 
generation of American athletes for our Nation.
    Today's hearing exemplifies some of the challenges that we 
still face in America. Glass ceilings should still not be 
prevalent in the 21st century but unfortunately we all know 
that they exist. Certainly more needs to be done but I think it 
is also important to acknowledge some of the steps that have 
been made already. Out of the four schools that I represent in 
the north Texas area, the University of North Texas, Texas 
Women's University, Texas Wesleyan University and North Central 
Texas College, we have a combined 13 minority head coaches that 
currently are teaching our young people in the 26th district. 
Texas Wesleyan table tennis head coach Jasnor Reed, who is an 
African-American woman, and I know, table tennis, but consider 
this: for the last 5 years she has led her team to the National 
Intercollegiate Championships. That is 2002, 2003, 2004, 2005, 
2006. I had the opportunity to be there with them during the 
championships last year and, put it this way, it was much more 
exciting than I would have thought that a table tennis 
tournament would have been. There is a lot of activity during 
that sport.
    But I am proud of the strides that have been made in 
diversity in the collegiate sports in the north Texas area. I 
should point out that Johnny Jones is the men's basketball head 
coach at the University of North Texas. He is ably assisted by 
Chuck Taylor. Both of those are African-American individuals. 
Texas Women's University you might expect to have a large 
number of women coaches but their softball coach is a Hispanic 
woman as well.
    I encourage all of the universities to continue to do what 
they need to do to break down the glass ceiling once and for 
all. I do hope that we will exercise some care and caution that 
in our zeal to promote people we do not deplete the ranks of 
the smaller colleges and smaller universities of very capable 
African-American and minority mentors and role models, but 
hopefully, Mr. Chairman, this hearing will just be the starting 
point for this and I look forward to many more hearings on this 
subject in the future, and I will yield back.
    Mr. Rush. Thank you. I recognize Mr. Hill of Indiana for 5 
minutes.

 OPENING STATEMENT OF HON. BARON P. HILL, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hill of Indiana. Thank you, Mr. Chairman. First of all, 
I would like to welcome my friend, Dr. Myles Brand, who is the 
president of the NCAA. Dr. Brand was also the president of 
Indiana University when I was in Congress for the 6 years 
previous to this last election, and I know him as a man of 
great integrity and someone that is very sensitive to this 
whole issue. I appreciate you taking the time out of your 
schedule to meet with us and discuss this important issue.
    Mr. Chairman, I want to thank you for giving us an 
opportunity to discuss this important issue today. As we come 
to the end of Black History Month, it is appropriate that we 
continue the discussion of diversity and equality. I am 
especially pleased that we are seriously considering this issue 
within college sports. As a former college athlete, I want to 
ensure that every position, players and coaches alike, is open 
to anyone who is qualified. I also believe that there should be 
no artificial or racial boundaries regarding the hiring 
practices within the world of college sports.
    Sporting events promote unity more than almost any other 
cultural event in America. It is up to us all that we make sure 
that we do not neglect problems of diversity but rather address 
them head on so that sports can continue to bring us all 
together as a Nation.
    Dr. Brand, I want to applaud your efforts in trying to 
promote equality and diversity within the NCAA. I know that 
from the beginning you have been dedicated to the promotion of 
diversity within the NCAA. It is my hope that with these 
hearings we can build on progress you have made by identifying 
potential obstacles regarding the hiring practices of the NCAA 
members and remedies that might be taken to sure that sports 
continue to unite Americans both on and off the field.
    Mr. Chairman, I grew up in a small rural town in southern 
Indiana, Seymour, Indiana. This was back in the late 1960's and 
the early 1970's, and I remember all the civil rights talk and 
watching it on television. I can remember as a 16-year-old 
roughly from a white high school thinking at the time, what is 
all the fuss here. I didn't understand why this was going on. I 
then went on to graduate from high school and enrolled on a 
basketball scholarship at Furman University in Greenville, 
South Carolina. My roommate was an African-American by the name 
of Clyde Mays. I was shocked at the treatment of my roommate as 
we went out and about Greenville, SC, at the time. There were 
places that he couldn't go into, and it really was an eye 
opener for me.
    And my point in all this is, sometimes people like myself 
grow into the realization that discrimination still exists 
today even. I didn't know it back then but I sure got an eye 
opener when I went off to Greenville, SC, and so this is a very 
important issue that we need to be addressing. I had this same 
discussion with Dr. Brand a couple weeks ago in my office. I 
know that you are keenly aware that there is a problem that 
needs to be remedied and you are fully committed to making sure 
that happens.
    So Mr. Chairman, I echo what everybody else is saying. This 
is an important issue. Because of my life experience at Furman 
University in Greenville, SC, I am very sensitive to it myself, 
and I know that we are going to make these corrections as the 
months and year go forward. I appreciate the opportunity to 
speak to this issue, and I yield back the remainder of my time.
    Mr. Rush. Thank you. Ms. Schakowsky is recognized for 5 
minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman, and it is a 
pleasure to see you in the chair on this great subcommittee, 
and also a real pleasure to welcome my special friend, Reverend 
Jackson, who has been an ally of mine. We have worked together 
for so many years. I am anxious to hear our witnesses testify 
but I just wanted to acknowledge that I am also proud that I 
came here to add some gender equity to this committee and to 
this discussion.
    I am going to put this statement in the record, which 
demonstrates my broad understanding of all things sports and 
the relationship now to the closing date of Black History Month 
and just yield back my time. Thank you.
    [The prepared statement of Ms. Schakowsky follows:]

 Prepared Statement of Hon. Janice D. Schakowsky, a Representative in 
                  Congress from the State of Illinois

    Thank you, Chairman Rush and Ranking Member Stearns for 
holding todays hearing on the lack of diverse representation in 
the leadership of college sports. I would also like to extend a 
special welcome to my dear friend, Reverend Jesse Jackson. It 
is so wonderful to have you here with us--and to have Chicago 
so well represented today.
    What a fitting way to close out this year's Black History 
Month, one that began with a historic sports moment. It was the 
first time that two African American coaches faced off in the 
Super Bowl. Had it only been one coach that made it--say Lovie 
Smith leading the Bears to a well-deserved victory--that, too, 
would have been history making.
    The story of Coaches Tony Dungy and Lovie Smith speak to 
the importance of diversity in leadership at the college level. 
Both started out as college-level coaches, And, when Coach 
Dungy was the head coach of the Tampa Bay Buccaneers, he gave 
Coach Smith--then a secondary coach at Ohio State--a chance at 
pro-football by hiring Lovie as the linebacker-coach. If it had 
not been for their college coaching experience and Coach Dungy 
seeing the leadership in Lovie Smith, we might not have had the 
chance to share in that tremendously important moment.
    However, I must also say that I am disappointed that it is 
2007-more than 43 years after this body passed civil rights 
legislation--and that only now we are making this kind of 
history. It is also alarming to know that Super Bowl XLI could 
be a historic blip on the radar screen because of the low 
numbers of African American coaches on the college level--who 
will be our future professional league coaches,
    According to the annual report card on diversity put 
together by Dr. Lapchick, one of our witnesses today, college 
sports arc receiving F's for lack of race and gender diversity 
in leadership positions--from conference commissioners to 
coaches. An F. What that grade says to me is that we are not 
learning our lessons and we need to do something to turn that 
grade around now. We cannot afford to miss elevating great and 
deserving coaches like Coaches Dungy and Smith because they did 
not have the opportunity to hone their skills at the college 
level.
    Clearly, we still have a long way to go to achieve true 
diversity at every leadership level in professional and 
collegiate sports. The low number of African-Americans in 
leadership positions is not because of a lack of talent or 
ability; it is solely because of a lack of opportunity. As we 
move forward, we must foster that opportunity and remove the 
obstacles that hold back some of the best and brightest coaches 
from reaching the highest levels of professional and collegiate 
sports. I look forward to hearing from today's witnesses and 
their suggestions on what we can do to break the coaching glass 
ceiling.

    Mr. Rush. Thank you to all the members. And now we will 
hear from our witnesses, and first of all, I want to introduce 
to this panel and to those who are present a man who I have 
loved for the last many, many decades, a person who has been 
instrumental in my life. Indeed, at a pivotal point in my life, 
he rescued me and actually to a great extent saved my life, 
literally saved my life, a man who is recognized world over as 
the foremost civil rights leader, the foremost humanitarian in 
the whole world. He has an enormous impact on all of us, on 
this Nation. He has an enormous impact in the sports area and 
he understands beyond most of our understanding the connection 
between sports and the commercial dimensions of sports. I am 
intrigued and excited about the subject matter that he 
discussed in an op-ed piece for the Chicago Sun-Times on the 
lack of people of color in athletic director and head coaching 
positions in college sports. I want to welcome to this 
subcommittee my friend, Reverend Jesse Louis Jackson.
    Our second witness is a person who I have recently met but 
have grown to respect very, very much because of his sincere 
commitment to this particular issue and his work on behalf of 
trying to end the discriminatory practices of the NCAA, a 
person who worked at the institution that I graduated from 
during the time that I was there and that person is Dr. Myles 
Brand. As the president of the NCAA, Dr. Brand has used his 
bully pulpit to be a very vocal proponent of increased 
diversity in the leadership rankings of college sports and a 
year and a half ago he is to be commended for creating the 
Office of Diversity and Inclusion to promote greater inclusion 
among the member schools. Dr. Brand, you are welcome to this 
subcommittee.

 STATEMENT OF REVEREND JESSE JACKSON, PRESIDENT, RAINBOW/PUSH 
                           COALITION

    Mr. Jackson. Thank you, Congressman Rush, and to members of 
the committee, thank you so much for allowing us to bring this 
important subject to the national agenda today.
    Let the record show that when African-American coaches do 
well, we should never say we are surprised but delighted. Only 
the ignorant are surprised. It is self-evident that we can 
coach football. We had this same drama, can a black be a center 
on the football team, initiates all plays, can a black be 
quarterback. Every position has been a major hurdle reflecting 
the social maladies in our culture.
    I was delighted to see Dungy and Lovie coach at Super Bowl 
time but I was torn over the fact that if Jake Gaither from 
Florida A & M had had that same opportunity to go across the 
street to Florida State, if Billy Robertson had that same 
opportunity at Grambling to go to LSU--that happened many years 
ago. We didn't learn to coach football last January. We are 
talking about barriers that lock people out, basically based 
upon race. I was glad to hear the Congressman from Arkansas 
extol these virtues on Coach Nolan Richardson, who won the NCAA 
championship, came in No. 2, this and that, the winningest 
coach. He had been blackballed. He can't coach. One of the 
winningest coaches in American basketball history goes from the 
top to the bottom for no rational reason. Here he sits today 
having coached the Panamanian team last year, preparing them 
for the rural games. What is up with the winningest coach in 
Arkansas who won the NCAA championship, goes to the top 4 four 
times can't get a job? It speaks loudly.
    We are here today in part because fair hiring is a civil 
rights issue. Title VII and title IX is why you have people of 
color in these schools and title XI is why you have women 
athletic teams because it is illegal not to. When we are 
protected by law, we gain progress.
    I am delighted, Congressman Hill, that you and Mays were 
classmates. He was a family friend really, both of us from 
Greenville, SC, but it was just amazing how we couldn't even 
while I was in school apply to Furman, and I grew up on 
University Ridge where Furman was housed, not because I 
couldn't pass the grades. I could not get admitted.
    We are fighting these barriers. Schools with Federal funds 
have civil rights obligations. Equal employment opportunity is 
a civil right, and the reason why there was some movement in 
the NFL, Mr. Chairman, was because of the Rooney Rule: you must 
at least consider a black. Democracy does not guarantee 
results; it guarantees opportunity. You must at least consider. 
And even with that, the 32 teams, four of the guys came from 
one team, Tony Dungy and Tomlin and Lovie and Herman, four guys 
from one team, and two guys from other teams. Even there they 
figure out ways to get around it. It is more cultural. It has 
nothing to do with capacity.
    I can't help but think that when Colorado was No. 1 2 years 
in a row that the defensive coach which was credited for giving 
them those victories, when Mr. McCartney resigned, he 
recommended Bob Simmons to replace him. It was so logical. They 
had been No. 1 2 years in a row. He was the head defensive 
coach. They closed doors and got Newhouser from UCLA, younger 
and far less resume, who later ended up being disgraced in some 
scheme up in Washington or something. Bob Simmons was sent off 
to Oklahoma State, a school with less investment, and ended up 
defeating, to make it real romantic and poetic, defeating the 
University of Colorado football team. Bob Simmons was qualified 
but he was turned away because of closed doors. No worse than 
University of Alabama. Coach Croom grew up in Tuscaloosa, 
hometown boy, All-American, University of Alabama, hometown, 
played under Bear Bryant, can't get better than that in 
Alabama, but when the deal went down, they chose Shula from 
Miami, who had almost zilch resume. He subsequently has been 
fired, by the way, and Croom went to Mississippi State. He had 
hometown credentials, All-American credentials, had been 
recommended to be hired as an NFL pro coach but got knocked out 
based upon that.
    Now, some progress has been made, Mr. Chairman, based on 
Dr. Brand's leadership of raising the academic standards to 
assure more graduation take place, and there is a penalty if 
you don't have a certain graduation rate but there is no 
penalty if you don't have black coaches, Latino coaches. There 
must be something that makes it a mandate to at least consider 
and to have some good reason why resume A that is superior goes 
beneath resume B, which may not hardly even exist. This thing 
is profoundly cultural.
    Part of what makes this such a big deal to us, why are 
blacks so successful in football, basketball, baseball, track, 
golf and tennis. It is hard to be a Division I starter. It is 
hard to be so good when you become All Conference better, to 
become All-American. It is very tough competition. Then to 
become a pro. Why are we so good at that which is so difficult 
to do where you must absolutely coordinate motor, cognitive 
skills under immense pressure, 40,000 jeering, 40,000, 
cheering? Why are we so good at what is so hard to do? Whenever 
the playing field is even, the rules are public and the goals 
are clear, we do well. If on that football field blacks had to 
run 12 yards for a first down to prove something extra and 
whites ran 8 yards for a first down because they inherited some 
yards, there are fights on the football field. As long as it is 
10 yards for all first downs, 6 points for all touchdowns, we 
get along quite well. That does not apply just beyond that mark 
of where you hire coaches, athletic directors and college 
presidents.
    What makes this subject exciting to me finally, Mr. 
Chairman, is the good that these sports have done for America. 
Congress is more hung up really on the issue of race and its 
hiring practices in many ways that the athletic world, in part 
because this is a zero-sum game. You only have 435 Congressmen, 
100 Senators and it is all a fight for those 535 slots. In this 
world of athletics, it is not a zero-sum game. Inclusion leads 
to growth. When there is growth, everybody wins, it leads to 
growth, and what excited me as I walked amongst the people at 
the Super Bowl game this year in Miami to see basic white 
mothers and their children and their husbands, the middle 
America, wearing black football coaches', black football 
players' jerseys and wearing Tony Dungy hats and to see blacks 
from Chicago wearing Brian Urlacher jerseys. What allows us to 
go beyond this dementing race crisis in athletics is because in 
this arena, this narrow arena, the playing field is equal 
except for coaches, athletics directors, and so if the victory 
of Dungy and Lovie means anything, it exposes a light on the 
obvious. The obvious is, blacks can coach football, basketball, 
baseball. They are not allowed to in the main because of lack 
of consideration. The incestuous recycling of who gets hired 
must be challenged because these schools are under the 
regulations of our government because they get Federal grants 
and somehow there must be hearings when they have these high-
profile openings and no blacks are considered. There must be 
some reason why, and I submit to you, sir, that EEOC laws must 
apply here. Civil rights in hiring are as important as civil 
rights in grades.
    Thank you very much.
    [The prepared statement of Mr. Jackson appears at the 
conclusion of the hearing.]
    Mr. Rush. Dr. Brand.

   STATEMENT OF MYLES BRAND, PRESIDENT, NATIONAL COLLEGIATE 
                      ATHLETIC ASSOCIATION

    Mr. Brand. Chairman Rush, Ranking Member Stearns and other 
distinguished members of the subcommittee, I am Myles Brand, 
NCAA president. Thank you for holding this hearing on a 
critically important issue, and I am pleased to be on a panel 
with Reverend Jackson.
    There is much to be proud of in collegiate athletics. I am 
especially pleased with the improved academic success of 
African-American student-athletes. Today African-American male 
student-athletes are graduating at 11 percentage points better 
than other black males in the student body and African-American 
females are graduating 15 points better than their counterparts 
in the general student population.
    But we also have challenges. Chief among them, in my view, 
is the dismal record of hiring people of color as head coaches, 
especially in football. In my very first public speech as NCAA 
president more than 4 years ago, I said that one of the most 
egregious instances of lack of access was the low number of 
African-American head football coaches in Division I-A or the 
Bowl Championship Subdivision, as it is now called. When I made 
that statement in 2003, there were four African-American head 
football coaches in Division I-A when you exclude the 
historically black colleges and universities, the HBCUs. Today 
there are six. We have gained a grand total of two in 4 years. 
There are five more in Division I-AA, now called the Football 
Championship Subdivision, two in Division II and only one in 
Division III, which is our largest division of schools. That 
makes a total of 14 African-American head coaches in all of 
college football when the HBCUs are excluded. In Division I-A, 
2.4 percent are head coaches where 55 percent of the student-
athletes are minorities. Sadly, if the pace of progress remains 
the same, it will be more than 80 years before we reach a 
percentage that even approximates the number of African-
Americans in the general population. As I have said on more 
occasions than I can count, this is not only unacceptable, it 
is unconscionably wrong.
    The NCAA cannot make the hires. The NCAA national office 
cannot mandate who is interviewed. Member institutions hire 
coaches and they are not about to cede authority and give up 
their autonomy to the NCAA national office to dictate either 
who they will hire or who they will interview in coaching or 
elsewhere. But that doesn't mean there is no role for the NCAA. 
Four years ago I began working with the Black Coaches 
Association, the BCA, to address inequities in the hiring 
process. The idea was that a more open and inclusive search 
would allow talent regardless of race to rise to the top and be 
hired. For 3 years now the BCA has prepared and made public its 
hiring report card that grades colleges and universities in 
Division I on their hiring processes. As a result of public 
disclosure, more than 30 percent of all candidates interviewed 
for head coaching positions over the last 3 years have been 
minorities. Even more striking is that 76 percent of all the 
openings over the last 3 years have had at least one minority 
candidate interviewed and more than three out of every four 
vacancies, a person of color was interviewed but only nine of 
the 81 openings in all of Division I have been filled with a 
minority candidate. Focusing media attention and expending 
energy on a collegiate version of the NFL's Rooney Rule not 
only ignores the success of the BCA hiring report card, it also 
diverts attention from the real issue, which is simply not 
enough hires.
    In addition to helping develop the hiring report card, the 
NCAA national office has developed three coaching academies to 
help prepare candidates for coaching positions. Academies go 
beyond the Xs and Os. The focus is on the other skills that are 
required to run a multimillion-dollar operation, hire and 
manage a staff of two dozen or more, organize and develop more 
than 100 student-athletes, recruit in competition with dozens 
of other teams for the best talent, help acquire donations for 
athletic and other departments in the university, and often to 
be the most visible person on campus. And oh, by the way, you 
have to win games. The most elite of these programs for expert 
coaches with 8 years' experience has had two of its graduates 
hired as head football coaches in the last 2 years and a third 
individual, a graduate of the NCAA's men's coaching academy, 
has also joined these ranks. Three of the last four minority 
hires have come from the NCAA academies.
    The coaching academies have made a difference, the BCA 
hiring report card has made a difference and yet not enough 
hires are being made. What is next? In my view, we must 
overcome two additional obstacles. We have to mitigate the 
risk-averse nature of those who make football hiring decisions 
and we have to improve the informal network so that minority 
coaches are included. Their names must be advanced when 
influential consultants are asked the question, who can do this 
job? Those who make recommendations and hires must be as 
comfortable with African-American football coaching candidates 
as they are with African-American basketball coaches who now 
occupy more than 25 percent of the head coaching jobs in 
Division I men's basketball. Incidentally, there is no Rooney 
Rule for basketball. Getting top candidates in front of 
athletics directors and others before the stress of hiring 
begins is the next push we must undertake.
    History was made on February 4 when two African-Americans 
coached their teams in the Super Bowl. Any institution focused 
on the values and success they represent would be proud to hire 
Lovie Smith or Tony Dungy as its head coach and both were 
coaches in college football but we let both get away. The next 
Lovie Smith or Tony Dungy is already in the pipeline. Talented 
minority coaches are on our campus in Division I. We simply 
have to hire them for the top jobs.
    I thank you for this opportunity.
    [The prepared statement of Mr. Brand appears at the 
conclusion of the hearing.]
    Mr. Rush. Thank you very much, Dr. Brand. Let me begin by 
asking you a couple of questions that I think are pretty 
relevant right now. Both of you have indicated that there is a 
real serious cabal in collegiate sports, really an old boys' 
network that excludes minorities from consideration and also 
from hiring. Can you describe for this subcommittee how that 
network, if you will, stands as a barrier to hiring of athletic 
directors and football head coaches?
    Mr. Brand. Yes. I think it is important to point out, Mr. 
Chairman, that the hiring process in universities is different 
from that in the professional leagues. There are a lot of hands 
on the wheel in college, and so it is not just the athletic 
director and the president getting together in almost all 
cases. There is a lot of information that goes through in terms 
of a search committee, in terms of input from alumni groups, in 
terms of consultants, and in terms of other football coaches 
too, who are, as you know, almost all white. As a result, all 
that information comes into the athletic director and the 
athletic directors have to make a decision that will affect 
their futures and so they have taken a very risk-averse 
position and have not been willing to hire African-Americans 
despite in many, many cases the noticeable and clear skill and 
experience of those individuals.
    So I think to move from the search process, which was 
getting better in the hiring, we are going to have to look at 
who is making the specific recommendations, where are the key 
points of change and leverage in that very complex process, and 
I know that firsthand, having been president of two 
universities. I have been involved in the hiring of head 
football and basketball coaches a number of times over. But 
sitting as a president, what happens is, you can help make the 
process more inclusive and that is why I think we are seeing so 
many more African-Americans interviewed, but most presidents 
don't know a lot about football or basketball and then take the 
advice of others, so we have to look at athletic directors and 
their committees and others who are providing that input and 
have a multi-pronged attack on that.
    Mr. Rush. Well, do you know if any of these presidents hire 
or have people on their staff who can be loosely classified or 
categorized as consultants on these specific matters of racial 
fairness in hiring at the athletic level?
    Mr. Brand. Yes. There are two types of people that do that. 
Almost all our major universities have an office of diversity 
in which they have--who oversee the process, not the particular 
candidate but will make sure the process is fair. We have to 
apply that affirmative action fair process to athletics just as 
we do to deans and faculty members and so on. We do it often in 
the rest of the university. Somehow we don't always do it in 
the case of athletics. And second, we have outside consultants 
who are hired to do the job who come in and they provide 
substantive advice. They give names.
    Mr. Rush. Reverend Jackson, do you care to respond?
    Mr. Jackson. Congressman, these same schools can find the 
players in the dingiest, most difficult circumstances. They can 
find the players. They can't find the guys who coach the 
players to make them qualified to play at this level of 
athletics. I mean, you go to X high school that is producing 
these great athletes and you look at their coach by and large 
in the city is African-American. The issue also is not to be 
colorblind but to be color caring. Race is an issue in hiring 
and recruiting. They will hire blacks to recruit to go into 
black neighborhoods and look for ballplayers like scouts and 
they hire them and put them on the staff to recruit, and what 
makes this--another concern, Congressman Rush, is that in this 
area, let us deal with, if a guy is a defensive coach and has a 
good defensive resume, there has to be points in that. If an 
offensive coach has a good resume, there must be points in 
that, and when you look at the Bob Simmons case in Colorado, of 
the Croom case in Alabama, resumes had no meaning, and 
somewhere outside of resumes, outside of objective criteria, I 
mean, the best defensive football coach in America for 2 years 
in terms of No. 1 couldn't get hired at that school. If you 
just look at the Shula versus Croom resume, it is not even any 
comparison.
    I would think that in the end you who are Congress people 
who allocate money to these schools must demand a standard for 
hiring and recruiting that is transparent. Without new rules--
we do best when the rules change. We were qualified to vote 
before 1965. Until the rules changed, we couldn't vote. We were 
qualified to play baseball before 1947 but until the rules 
changed--we need rules to protect us. We cannot depend upon the 
subjective whim of well-moneyed alumni groups that somehow 
operate outside of the university system. The president of the 
university must be responsible for who is hired, even though 
the coach often gets paid more than the president, I might add. 
Somehow we have almost run a kind of a parallel scheme here 
that takes the coach outside of the realm of the university 
mandate. I think that cannot be allowed to happen.
    Mr. Rush. Thank you. Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman. I was pleased that 
when I read the statement of Reverend Jackson he indicated what 
the real issue is here. Some people will talk about it being 
fairness but I was pleased that he mentioned in his opening 
statement when he said, ``They simply need to be given an 
opportunity,'' and obviously he is talking about the African-
American individuals. When you look at Lovie Smith or Tony 
Dungy's resume and you see back in 1992 Lovie Smith was a 
linebacker coach and then in 1994 he was at the University of 
Tennessee, a defensive back coach, in 1995, defensive back 
coach, 1996 to 2000, linebacker coach, 2001 to 2003, defensive 
coordinator. Then he became head coach of the Chicago Bears. 
The same pattern is for Tony Dungy when he was talking about in 
1988 he was the Pittsburgh Steelers defensive coordinator, 1992 
to 1995, defensive coordinator, Minnesota Vikings, in 1996 to 
2001 Tampa Bay Buccaneers, he was head coach and then he went 
to Indianapolis Colts where he was the head coach.
    Dr. Brand, you had indicated in basketball there was no Art 
Rooney Rule and yet we have seen in basketball the coaches. Is 
that what I understand you to say?
    Mr. Brand. Yes, sir.
    Mr. Stearns. OK. And we all know that the Art Rooney Rule 
from the Pittsburgh Steelers owner essentially guaranteed that 
when someone looked at a coach, there was a mandate that you at 
least have one African-American. Is that what I understand the 
Rooney Rule to be?
    Mr. Brand. Yes, sir.
    Mr. Stearns. Now, under this kind of situation, it seems to 
be working in basketball but not in football. Is that a fair 
statement?
    Mr. Brand. Yes.
    Mr. Stearns. And so clearly, the opportunities for African-
Americans to make it in basketball are there and it is highly 
competitive and these athletes are extraordinarily successful, 
so in a simple way, you mentioned two reasons it is not making 
it in a broad sense. You said risk-averse and informal rules. 
Reverend Jackson doesn't want to have rules because he realizes 
if you don't have transparency and you have these rules, then 
people somehow are able to manipulate those rules and do what 
they want. So the transparency is what he is asking for. Now, 
is the transparency there in basketball that is not in 
football?
    Mr. Brand. No, actually there is more transparency right 
now in football than there is in basketball in hiring head 
coaches, and that is the result of the good work of the Black 
Coaches Association and their report card. They make public and 
they have for the last several years the entire interviewing 
process and who is being interviewed. What that has done is 
that we have produced on average 30 percent of the people 
interviewed for head football coaches in Division I are 
African-American. Seventy-six percent of all the searches have 
included amongst their final candidates for interviews African-
Americans. We have now transparency in hiring African-American 
head football coaches more than we have in basketball, so that 
is part of the answer.
    Mr. Stearns. Well, then are you saying that the 
transparency is not the key then?
    Mr. Brand. It is not sufficient. It is necessary. We can't 
give it up but it is not sufficient.
    Mr. Stearns. Transparency in football, it is more 
transparent than it is in basketball?
    Mr. Brand. Yes.
    Mr. Stearns. But we are more successful in seeing the 
number of African-Americans in basketball?
    Mr. Brand. Yes.
    Mr. Stearns. So what gives?
    Mr. Brand. It is the hiring process. I believe it is how 
the recommendations are made to the president and the board in 
the universities. We really have to get inside that process. It 
is a complicated process. Sometimes alumni and boosters have 
excess control.
    Mr. Stearns. I understand that. It is a money game.
    Mr. Brand. I don't think that is always the case. I think 
there is risk-averse. There is a lack of knowledge of some very 
fine coaches and we have got to be able to increase that, so we 
have got to find a way to get inside those final 
recommendations. The transparency is there, sir.
    Mr. Jackson. Mr. Stearns, there is also a sense now--there 
is a kind of belief that black basketball coaches can recruit 
black kids better and can quote, unquote, handle them. There is 
a sense that there is kind of an expectation shift that is 
taking place on the basketball side. You mentioned Tony Dungy. 
He also, given the Rooney Rule, was asked to come to Green Bay 
to seek the job as an offensive coordinator and he was 
defensive, therefore he didn't make it. They asked him to come 
but Tony--Lovie Smith was Chicago's fourth choice. Nick Sabin 
was the first choice and couldn't work out team control. He 
took the job at the lowest price of any coach in the whole NFL 
to get a chance to coach. There is not a player on his bench 
that makes less money than he makes. He is the lowest paid 
person on the personnel and can't get a contract signed now 
after going to the Super Bowl.
    Mr. Stearns. If it is true in terms of recruiting for 
basketball, why wouldn't it be true for recruiting for 
football? Why wouldn't the African-American coach be much more 
successful at recruiting in football if using your argument 
that he does for basketball?
    Mr. Jackson. Ask the hirer, whoever is calling that shot as 
to the employer, the alumni group that weighs in. When you 
close the door at Colorado and you look at the resume of 
Newhouser behind that closed door, ask those people that 
question because that is who is making that decision that 
somehow blacks can't relate to alumni groups or they can't 
raise money, they can't do the beyond-the-football field stuff. 
So I think that what is clear is, there is no deficit of 
football capacity to coach but the will to hire, and I would 
think when we made the most progress when we were protected by 
law. I don't want to go any further where you have NCAA 
openings and what schools get Federal monies not to be 
accountable on some transparency in recruiting of coaches, not 
just recruiting of players process.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Rush. Mr. Hill is recognized for 5 minutes.
    Mr. Hill of Indiana. Thank you, Mr. Chairman. Dr. Brand, I 
was listening to your comments and was wondering, what stage in 
the process, whether it be the search committee, recruiting, 
what is the most important area that you need to focus your 
attention on in terms of trying to get this turned around?
    Mr. Brand. Yes. I think that is a central question. I 
couldn't agree more with Reverend Jackson. The will to hire is 
just not there right now, and I think you have to look at the 
final recommendation that comes to the president. I mean, 
although the president has responsibility and final authority, 
there is no question about that, but presidents by and large 
don't know a lot about college sports. They think they do but 
by and large they need good advice, and the athletic director 
and those who help the athletic director including consultants 
and others are providing that advice, and I think you have to 
go right to the heart of the decision-making process, the 
recommendations that are coming up the line at that crucial 
point, and that is where I would look for leverage.
    Mr. Hill of Indiana. OK. Reverend Jackson, in listening to 
your remarks, I am still not clear in my own mind why we are 
being successful in basketball but not football. I am drawing a 
blank here.
    Mr. Jackson. I am not sure. It could be--Nolan Richardson, 
who has been through this process, might be able to answer that 
question better. I think what excites me at one level today 
having grown up in South Carolina, when I look at University of 
Clemson, University of South Carolina, the whole State becomes 
orange and white versus red and white instead of black and 
white. Only athletics can take us to that euphoria, that is 
because of the rules, but wonder why they cannot get coaches. 
They get coaches on those teams to recruit those black players 
because they feel they have more access to the homes but not in 
fact. The alumni then decides can we take this leap of faith 
and trust and one would like to think that the success of Tony 
and Lovie has given more people the heart, quote, unquote, to 
take the leap, the risk, because the winningest percentage--I 
might add, the black coach's percentage is higher like the 
black kids, the athletes' graduate rates are higher than the 
average students. Black coaches' winning records are higher 
than their white counterparts. So everything about this says 
that something about this is irrational. The winningest coaches 
can't get the jobs. I can't believe--Nolan Richardson again, 
the guy from Arkansas, he is the No. 1 NCAA championship, he is 
the No. 2, No. 4 something, he is the--and can't get a job. 
What is wrong with that?
    Mr. Hill of Indiana.Well, I agree with you 100 percent. I 
am just at a loss as to why again it is--they are not hiring 
people like him in football but they are doing it in 
basketball. I mean, Indiana University has an African-American 
coach now that I think very highly of.
    Dr. Brand, would you care to offer your--I mean, you have 
been involved in this before. You know how the network works.
    Mr. Brand. Well, I hired the first African-American head 
coach in any sport while I was president of Indiana University 
and frankly, that was a hard barrier to break through and----
    Mr. Hill of Indiana. Let me stop and ask, was this person 
that you hired recommended by your select committee?
    Mr. Brand. Yes.
    Mr. Hill of Indiana. OK.
    Mr. Brand. Yes, and I think it was a good recommendation. 
Obviously I went with it. He was a basketball coach, by the 
way. And the fact of the matter is, I think most presidents 
need that good advice and we have got to figure out a way to 
provide that advice. What we have in football like in 
basketball is a continuing repetition of the decision-making 
processes and those involved in the decision-making processes 
that don't allow for inclusion. We are caught in a small circle 
there and we have got to break out of it, and until we do that, 
until we get a critical mass of leadership as we do now in 
basketball coaches, we are going to be confined in this small 
circle and it doesn't work for these universities. They need 
the better talent.
    Mr. Jackson. Mr. Hill, the best news is that black coaches 
are qualified. They don't need to be taught to do it. They are 
qualified and they are winning. That is what gets the rub. They 
are qualified, it is self-evident, and winning. In 
qualifications, when winning is not enough, something 
irrational is cooked in and those persons who have those 
qualifications should be protected from those persons who 
present obvious barriers.
    Mr. Hill of Indiana. Thank you, Mr. Chairman. I yield back. 
Thank you.
    Mr. Rush. Dr. Brand, if the search committee says hire, 
then where is the resistance? If the search committee makes the 
recommendation and the hire doesn't take place, then what is 
the barrier? Why doesn't it take place?
    Mr. Brand. Search committee recommendations come through 
the athletic director, who usually confers directly with the 
president and translates, if you like, that information from 
the search committee. Too few search committees are looking at 
just football expertise and are looking at other issues. Look, 
the elephant in the room is race and a number of search 
committees are concerned and treat that as a negative when they 
obviously should not. So we get that, and as that 
recommendation comes up to the president, he works directly 
with the athletic director who more often than not obviously is 
white and looking at the same group of candidates that they 
have looked at before. So I think it is that search process as 
the recommendation goes up that we have to figure out a way to 
break in.
    Mr. Rush. Mr. Terry.
    Mr. Terry. Well, let us follow up on that, Mr. Chairman, 
where my question is coming from. I think the two of you have 
identified and being experts in your field, I wouldn't 
disagree. I think the search process, the lack of knowledge by 
the president or chancellor who approves or the regents board 
then that approves later, their lack of expertise. So the issue 
is since we have identified one of the more significant aspects 
of the problem, what is the specific solution that can be 
reasonably adopted by the NCAA to make sure that the best-
skilled coach is hired, especially if they are African-
American. Doing a Rooney Rule in the NCAA, is there some way 
that we can make that by rule, not by legislation but by the 
NCAA to really encourage this?
    Mr. Brand. Now, remember, the Rooney Rule only mandates a 
best practice for interviews. We already have that. In fact----
    Mr. Terry. And Reverend Jackson even exposed how that can 
be abused.
    Mr. Brand. Right, so that is not where the answer lies. I 
mean, where I think the answer is lying is making sure that 
there is direct and informal contact and it can't just be from 
the national office of the NCAA. For example, the conferences 
and the conference commissioners have begun to hold informal 
meetings in June and other times of the year in order to bring 
together athletic directors and potential candidates who are 
African-American head coaches. Our coaches' academies not only 
serve some professional development opportunities but they also 
bring people together in the same room. We need to be able to 
break down those social and informal barriers so that we know, 
so that the ADs and others who are making the decisions 
understand and can interact with these leading coaches.
    Mr. Jackson. The reason I am so strong, Congressman, on the 
rules is that you do benefit people that you know, trust, like 
and have to--know, trust, like, have to. If we have to be 
considered, then we are in the game. If it based on know, trust 
and like, we don't get in the circle. There is a dimension just 
beyond know, like, trust, have to. If you get Federal monies 
for that school and they are hiring people, there is something 
called EEOC, that is called fairness in hiring. That does not 
guarantee that the person gets the job. It guarantees 
transparency in the consideration, and to that extent, you 
begin to move in with the have-to dimension.
    Mr. Terry. In that regard, does that mean that university 
hiring within an athletic department is exempt from EEOC review 
currently?
    Mr. Brand. No.
    Mr. Terry. I didn't think they were.
    Mr. Jackson. Apparently they are.
    Mr. Brand. No----
    Mr. Terry. Unless a complaint is filed.
    Mr. Brand. EEOC says that in extraordinary circumstances 
you can step out of your normal hiring practices. 
Unfortunately, that is used too much and is an excuse. So it is 
within the law but it is being abused, to be frank about it.
    Mr. Terry. All right. Then there is maybe some way or 
something that we could do to look at it but I think other 
regards it needs to be dealt with by some institutional changes 
within the NCAA or, as you said, Dr. Brand, the conferences 
themselves.
    In my minute and a half that is left, just as a college 
football fan, it appears to me just over the last 10 to 20 
years even though there are white head coaches, even at the 
University of Nebraska, the vast majority of assistants, 
offensive, defensive coordinators are African-American. Are we 
seeing that tipping point coming where just the vast--there is 
going to be so many more highly qualified coordinators that are 
from major programs that are going to be the obvious choice for 
the head coaching position, that we are just going to see a 
more natural hiring of African-American coaches? I would like 
your comments both from Reverend Jackson and Dr. Brand.
    Mr. Brand. I would hope so but I am at this point not as 
optimistic as I would like. I mean, it is true that the 
pipelines are filling up and that is a very positive sign but 
until we actually make the hires, we won't reach the tipping 
point. We are not close to the tipping point right now. We 
don't have the critical mass.
    Mr. Jackson. Being at this hearing, Congressman Rush, is 
making this a public discussion. We have to put light on this 
discussion. It is absurd. When you look at Lovie being the 
fourth choice and he takes them all the way to the top and 
after he won the championship last year in this area they kept 
him from a pay raise. This time he went all the way to the 
Super Bowl, and I am glad that the writers in this sense, white 
female writers said it is beginning to smell like race. If 
Bobby Rush or I had said that, it would take on another, here 
you go jumping again, but is becoming obvious that something is 
not passing the smell test when the Super Bowl coach cannot get 
paid more than his players. It is that little tweak there that 
means that public pressure becomes a factor in forcing people 
to think, because if the Chicago Bears fans, they say he is the 
guy, and in Indiana, Dungy is the guy. So it is that--that is 
the tipping point that must be broken and I think public 
pressure and your inquiry--if they know that there is a new 
hire to be taking place and that your eyes are on them for 
transparency, that would be a help. Just that alone would be a 
help.
    Mr. Terry. Thank you.
    Mr. Rush. Mr. Whitfield, you are recognized for 5 minutes.
    Mr. Whitfield. Thank you, Chairman Rush, and Reverend 
Jackson and Dr. Brand, we appreciate both of you being with us 
this morning on this important subject. Like other members, I 
certainly enjoy professional sports and collegiate sports, and 
I would just ask you, what is the average salary--maybe 
Reverend Jackson can answer this question--the average salary 
of a head coach in the NFL today?
    Mr. Jackson. I do not know. All I do know is, it has been 
widely published that the lowest salary is Lovie Smith, who 
took the team to the Super Bowl. That is all I know.
    Mr. Whitfield. And did you make the comment that he was 
unable to get a new contract signed or something?
    Mr. Jackson. It is being negotiated right now, and it is 
becoming an issue in the public because it is so absurd right 
now. He is the guy who is the key man obviously from his 
success and yet far inferior records are getting better paid 
but not the same kind of public back and forth.
    Mr. Whitfield. And Dr. Brand, do you all keep records of 
the race of athletic directors at, say, Division I colleges 
around the country?
    Mr. Brand. Yes, we do. The situation for ADs is a little 
different from head football coaches. We are at the beginning 
of seeing some serious movement and in particular several 
African-American athletic directors are now at the very best 
jobs and are moving between positions, so we are close to the 
tipping point. They are not there yet but we are seeing in 
athletic directors some serious positive movement.
    Mr. Whitfield. How many Division I schools are there?
    Mr. Brand. There are 119 I-A schools.
    Mr. Whitfield. And of those 119, how many African-Americans 
would be the athletic directors?
    Mr. Brand. I think it is around 13. I am not 100 percent 
sure of that number but I think it is--more importantly, it has 
increased and importantly too they are at some of the very best 
schools.
    Mr. Whitfield. Now, you obviously have a lot of contact 
with university presidents and university athletic directors. 
Is this an issue that they seem to be talking a lot about or is 
it just sort of something that comes up periodically or----
    Mr. Brand. I think there is general recognition and concern 
but not enough debate and discussion.
    Mr. Whitfield. Right. How many employees do you all have at 
the NCAA?
    Mr. Brand. Now, remember, there is great confusion about 
who the NCAA is.
    Mr. Whitfield. OK.
    Mr. Brand. The national office has about 350 employees. 
They are all staff members, myself included. I have no votes on 
any of these issues. We service the larger population. That 
larger population consists of over 1,000 schools and 
universities and the hiring decisions are being made on the 
campuses. The NCAA national office has no authority to 
recommend or to make any hires.
    Mr. Whitfield. OK. So the 300 or so at the headquarters, 
you all are simply the administrators of the rules and 
regulations and provide guidelines?
    Mr. Brand. Yes, sir. That doesn't stop me from speaking out 
though.
    Mr. Whitfield. And at the NCAA headquarters, what percent 
would be African-American employees, would you say?
    Mr. Brand. I will ask my colleague but I think it is over a 
quarter. Yes, about a quarter, including leadership positions, 
I should say.
    Mr. Whitfield. And how long have you been the head of the 
NCAA?
    Mr. Brand. Four years, sir.
    Mr. Whitfield. So have you enjoyed the experience?
    Mr. Brand. Yes, I have.
    Mr. Whitfield. I am not going to get into the University of 
Illinois Ilini issue but--OK, Mr. Rush. I yield back the 
balance of my time.
    Mr. Rush. We recognize the ranking member for an additional 
question.
    Mr. Stearns. Mr. Chairman, you were asking Dr. Brand a 
couple things which I thought were pertinent, and I would like 
to find out, what is your feeling on the influence that the 
alumni has in the selection of the football coaches, because we 
have talked about the athletic director, the president, and you 
indicated the president probably has no knowledge of who to 
hire; he relegates this to the athletic director. But it wasn't 
clear to me in your conversation your feelings about the alumni 
department.
    Mr. Brand. That is a very important question, I think. I 
think on some campuses, and it is variable by campus because 
there are different processes on each campus. It is variable by 
campus. On some campuses, they have a great deal of influence. 
On most campuses, the large majority, they have modest or 
little influence. So you really--I read an article not long 
ago, an op-ed in the New York Times, that said it was the 
alumni group or the booster groups that were the problematic 
groups, and that is conceivable. It would be true on some 
campuses but I would think it would be a small proportion of 
the campuses, so we have to be careful not to exaggerate their 
role in the decision-making.
    Mr. Stearns. I just wanted to ask Reverend Jackson the same 
question I asked Dr. Brand, he was talking about the athletic 
directors and the president and the alumni and trying to 
understand this transparency, and I was asking him what the 
influence of the alumni was, and you perhaps may have an 
opinion of the alumni's participation and their decision-making 
process in this whole process.
    Mr. Jackson. Well, they are the ones that pay the coaches 
the exorbitant salaries, oftentimes outside and beyond what the 
presidents make.
    Mr. Stearns. Yeah, they make a lot more than the president.
    Mr. Jackson. Well, they do, and they are the ones that 
offer the coach the radio and the TV commercial deal. They 
bring to the table lots of money to influence the decisions and 
all you can do is to, A, recognize that that big money factor 
is a huge factor.
    Mr. Stearns. Is it critical, do you think? Would you say it 
is critical in the decision process?
    Mr. Jackson. It may be the biggest factor because you are 
not hiring a coach to be a physical education teacher. You are 
not hiring him to be a professor. You are hiring him to coach 
the ball team and that is its own profession.
    Mr. Stearns. Dr. Brand, Reverend Jackson says he thinks it 
is critical, perhaps the reason that a lot of these coaches 
selected. Would you agree with that?
    Mr. Brand. On this particular issue, in my own experience I 
would not say that that is the case. However, on some campuses, 
often very high-profile coaching positions, it is critical but 
on a large majority of campuses in my experience and talking to 
many presidents, it is a factor but not the critical factor.
    Mr. Jackson. Dr. Brand is different. You must understand. 
This guy got rid of Bobby Knight so he is different. He is not 
like other people.
    Mr. Rush. With that note, we are going to conclude this 
first panel. I want to really thank our witnesses for their 
extraordinary testimony and we certainly will commit to 
continue to look into this area and provide what we hope will 
be some remedies for this situation that currently exists. 
Thank you very much.
    We will call our next panel. I want to welcome, and this 
committee wants to welcome this panel of expert individuals who 
have shared so much of their lives that they experienced with 
America. I want to first of all, from my left and your right, I 
want to welcome specifically Dr. Fitzgerald Hill, who is the 
president of Arkansas Baptist College. Dr. Hill is a former 
head coach of the football team there at San Jose State. Dr. 
Hill was an assistant head coach at the University of Arkansas 
football team. He has done extensive academic work on this 
particular subject matter.
    Next, Dr. Floyd Keith is the executive director of the 
Black Coaches Association. Mr. Keith can describe the 
difficulties and barriers African-American coaches face when 
trying to move up the coaching ranks and obtain the top head 
coaching positions of college sports teams.
    Our next witness is Dr. Richard Lapchick, who is the chair 
of the DeVos Sports Management Program and director of the 
Institute for Ethics and Diversity in Sports at the University 
of Central Florida. Dr. Lapchick has done extensive work as an 
academician and as an advocate for diversity in college sports 
and will present a macro perspective including the results of 
his annual ``race and gender report cards for college sports.''
    Our next witness has been identified and talked about 
earlier by the earlier witnesses. He is none other than the one 
and only Dr. Nolan Richardson, who is the former head coach at 
the University of Arkansas in basketball. Coach Richardson was 
the head coach of the Arkansas Razorbacks when they won the 
national championship in college sports at the Division I 
level, and despite his enormous success as was indicated 
earlier, he took his team to the Final Four three times and he 
won the National Coach of the Year honors in 1994. The 
University of Arkansas fired him in 2002, and we would like to 
hear his testimony regarding that.
    Finally, Tim Weiser, who is the director of department of 
athletics at the Kansas State University. Mr. Weiser is also 
the incoming president of Division I-A Athletic Directors 
Association. Mr. Weiser recently hired Ron Prince as head coach 
of the Kansas State University football team, making Mr. Prince 
one of the only seven African-American head coaches in Division 
I-A college football. We welcome him and his testimony also.
    We will begin with opening statements for 5 minutes from 
our witnesses, and we will start with Dr. Hill. Dr. Hill, would 
you please give us your opening statement for 5 minutes?

   STATEMENT OF FITZGERALD HILL PRESIDENT, ARKANSAS BAPTIST 
                            COLLEGE

    Mr. Hill. Thank you, Chairman Rush, and Ranking Member 
Stearns and other distinguished members of the subcommittee, 
and I appreciate the opportunity to share my personal 
experiences with you today. You have heard the stats and I am 
not going to elaborate on that. But this is very personal to me 
because I was in this profession for 20 years and this is 
something that has weighed heavily on my heart.
    I think if we go back and look, and I am going to share a 
little story as head football coach at San Jose State, we were 
coming off a very positive 2 years. Our third year, we had some 
problems and didn't win as many games as thought, but as we 
stood at the boosters meeting which Mr. Stearns had referenced 
to what the importance of the boosters that get involved in the 
hiring process, I recently hired a new white defensive 
coordinator after replacing a black defensive coordinator. So 
after a few glasses of wine, a booster came over to me and said 
Coach Hill, a couple of boosters and I, we have been talking, 
we have been thinking and we think that you are going to turn 
the program around now. He said we just had a discussion a few 
weeks ago and we think one reason that you were not more 
successful is because you had too many African-American 
assistants on your staff. I said oh, really. I said, well, it 
is interesting that you would say that. I said have you 
researched the success of the program over the last 3 years 
versus the success of the program 2 years previously of the two 
previous head football coaches, who happened to be white. I 
said if you know Coach John Ralston, who is a Hall of Fame 
coach, served as head coach at San Jose State for 3 years, who 
is now in the Hall of Fame, and then he named his own 
successor, David Baldwin basically, and I said did you check 
their winning percentages, and he said no, I haven't done that. 
I said if you go back and look at that real closely, you will 
see that my winning percentage is better than their winning 
percentage after 3 years.
     So with that being said, I want to ask you this question: 
after those first 3 years of those individuals, did you go back 
and tell Coach Ralston and Coach Baldwin that they would have 
won more games had they had more white coaches. And the booster 
situation has a lot to do with what we are dealing with today, 
and I think in my opening testimony I would like to say how the 
story of the effects of race is in the numbers and the history 
of the hires. I mean, you don't have to say anything, just look 
at the statistics.
    Race continues to influence the decision-making process for 
head coaches and coordinators positions. To explain the 
effects, consider this. What if Vince Lombardi and Bear Bryant 
were born with one-tenth of African-American blood in their 
veins? Where would their coaching careers have taken them? The 
same holds true for Bud Wilkinson, Woody Hayes, Frank Broyles 
and Darrell Roll.
    In the five Bowl Champion Series (BCS) games following the 
2006 season, the 10 head coaches were all white. How long will 
it be before two African-American coaches play each other in 
the national champion game? We don't know. At the conclusion of 
the 2006 season, there were 23 vacancies. One African-American 
was hired and he wasn't their first choice. Since 1992, there 
have been 437 head coaching vacancies at Division I level. 
African-American coaches have been selected a total of 26 times 
with 12 hirings occurring after the 1996 season. With those 
numbers, there are those who claim that equal opportunity is 
available to all regardless of color, but if they analyze the 
data, they would be amazed that more African-Americans have 
served our president as a Secretary of State than have worked 
as head football coach in the Southeastern Conference. I am so 
thankful that General Powell and Secretary Rice had a goal of 
emulating Henry Kissinger instead of Bear Bryant.
    The unconscious employment barriers of these problems are 
evident when you listen to Roy Kramer, who served as 
commissioner of SEC for 12 years, and in 1997 Roy Kramer told 
the Washington Post that the SEC schools were hiring equally 
across the board. Well, if Coach Kramer and others like him 
looked at the situation realistically, they would realize that 
their definition for equitable access in the coaching 
profession was at least grossly distorted and at most is a 
factual lie. The NFL has made tremendous progress with the 
Rooney Rule but for the NCAA to merely match the NFL's progress 
in this area, college football would have to hire 21 more 
African-American head coaches tomorrow. That is hard to imagine 
when considering that there is fewer African-American head 
coaches than there were 10 years ago, which concludes that 
racial equality is not progressing forward, it is actually 
going backwards. In football terms, that is called a fumble. 
Thanks to Jimmy ``the Greek'' Snyder, which really brings these 
comments to light with his comment back in 1988 and he said, 
``If all African-American coaches take over all the coaching 
jobs like everybody wants them to, there is not going to be 
anything left for white coaches.'' This is 2007. That statement 
was made in 1988. We have to tackle the barriers so that black 
coaches can coach. They want what everybody else wants, an 
opportunity to do that. I am fortunate that I had the 
opportunity to do that and I hope that my peers will get that 
chance to do the same. Thank you so very much for allowing the 
testimony.
    [The prepared statement of Mr. Hill appears at the 
conclusion of the hearing.]
    Mr. Rush. Thank you. Mr. Keith.

  STATEMENT OF FLOYD KEITH, EXECUTIVE DIRECTOR, BLACK COACHES 
                          ASSOCIATION

    Mr. Keith. On behalf of the Black Coaches Association, I 
would like to thank the Committee on Energy and Commerce and 
particularly the Subcommittee on Commerce, Trade, and Consumer 
Protection and you, Chairman Rush, for initiating this hearing 
regarding the lack of diversity in leadership positions within 
the NCAA collegiate sports. I am proud to represent more than 
4,000 members of our association who entrust me with this 
opportunity to dialog on this issue. The Black Coaches 
Association is a 501(c)(3) tax-exempt, nonprofit organization 
created for the primary purpose of fostering the growth and 
development of ethnic minorities at all levels of sports, both 
nationally and internationally. Our mission is threefold: to 
address significant issues pertaining to the participation and 
employment of minorities in sport, to assist minorities 
aspiring to have a career in athletics through educational and 
professional development programs and scholarships and to 
provide youth and diverse communities the opportunity to 
interact positively with the BCA.
    This statement specifically relates to the dire and 
disparate representation of African-Americans in roles of 
leadership within the NCAA. Since 1987, and especially 
beginning with the fall of 2002, the BCA has been hands-on in 
the effort to implement positive and proactive initiatives to 
address this concern. Dating back to 2003, on four previous 
occasions, I have personally voiced this concern on behalf of 
the association to members of Congress at the Congressional 
Black Caucus in 2004, the annual legislative conference in 
2004, and in 2005, the National Black Caucus of State 
Legislators. I applaud this committee.
    Dr. Lapchick will share with you the stark reality of 
statistical facts regarding participation and employment 
opportunities. One statistic I will definitely share with you 
which I am sure will get your attention is this. Recognize 
today that a candidate of color has a far great chance to 
become a general in the United States Army at 83 percent with 
26 percent participation than becoming president at any NCAA 
Division I-A institution, which is 3.4, or being named head 
football coach, which is 3.6, or women's basketball coach, 
which is 7.7, for any NCAA Division I program as well as an 
associate athletic director at 8 percent for any institution or 
faculty rep at 7.6 or being named commissioner of any NCAA 
athletic conference, which is zero percent. You have a better 
chance of being Colin Powell.
    The game plan for the BCA has been addressed and centered 
on a goal-oriented approach which has been framed on knowledge, 
accountability and political influence and financial influence. 
The knowledge component has been addressed in three ways: 
first, by our continuing efforts to expose and report accurate 
statistical analysis of the issue. Second, these statistical 
data are then complemented by providing intercollegiate 
decision-makers with lists of capable candidates for head 
coaching and athletic director openings. We also understand the 
necessary to both acknowledge and increase the numbers of 
African-Americans in the candidate pool. For the past 5 years 
the BCA has made the diligent effort to provide capable 
candidate lists for Division I head coaching openings in 
football to collegiate athletic directors and presidents for 
every opening. We have asked that this information be received 
with an open mind with the insistence that an honest 
consideration of applicants of color and gender would be given. 
It will be difficult, if not impossible, for change to occur if 
decision-makers do not expand their knowledge and awareness of 
potential candidates beyond their often utilized comfort zone.
    The third piece is educating the general public regarding 
the unfounded myths of people of color and the unspoken 
concerns of the negative effect upon financial giving and 
corporate sponsorships that is also a function of knowledge. 
The BCA believes accountability is fundamental in any formula 
dedicated to altering social injustice. Throughout the history 
of our United States, the resolution of civil rights issues has 
always required accountability. The role of the BCA's hiring 
report card, which I will discuss shortly, has served as our 
instrument of accountability to date. Just as title IX opened 
doors for NCAA women's athletics, we believe title VII may be 
necessary to drive this issue to the forefront and fulfill the 
accountability requirement. History has proven that in order 
for any significant progress to be made in eradicating a social 
injustice, legal action has been the catalyst for change.
    The final category is that political and financial 
influence reveal a harsh reality which is present in all high-
profile searches. Who knows who is much more important that who 
you know. It would be naive for us to think we can disregard 
the power of influence of these components.
    Increasing the candidate pool, I will address that briefly. 
Since the fall of 2002, we have attempted to increase the pool 
of candidates with the awareness of capable candidates lists 
for the positions of head football coach and basketball coach 
as well as athletic director. This resource was initiated as a 
collaborative effort between the BCA and the NCAA's minority 
opportunities interest committee coupled with recommendations 
from high-profile coaches and administrators in collegiate 
athletics. Myles Brand has supported this process. Our lists 
are distributed in two ways. As a subscriber to the BCA's 
online job line, a candidate list may be viewed by 
representatives of the institution seeking applicants. Second, 
for the Division I head coaching openings in Division I 
football and women's basketball and for athletic director 
searches, both a general and specific candidate list is 
provided directly to the institutional athletic director and 
president via a hiring report card package which we sent.
    Great strides have been made in professional development. 
The aforementioned coaches academies that have been developed 
by the NCAA at Myles Brand's blessing and with the support of 
the BCA and the American Football Coaches Association and the 
NFL are going a long way to provide new candidates for 
intercollegiate coaching positions but this may not be enough.
    Mr. Rush. Mr. Keith, would you bring your conclusion, 
please?
    Mr. Keith. We have been working also to confront myths, 
improving the search process with our aforementioned hiring 
report card, which is already in the record, sir, and title VII 
implications we feel can be utilized to advance this issue. 
Thank you very much.
    [The prepared statement of Mr. Keith appears at the 
conclusion of the hearing.]
    Mr. Rush. We will make sure that the remainder of your 
testimony is included into the record. Dr. Lapchick, welcome.

 STATEMENT OF RICHARD LAPCHICK, CHAIR, DEVOS SPORTS MANAGEMENT 
                            PROGRAM

    Mr. Lapchick. Thank you very much, Congressman, and we 
really appreciate the fact that you have convened these 
hearings. I was one of the people who testified when 
Congressman Towns and Senator Bradley put forth the Student-
Athlete Right to Know Act many years ago and that has had a 
tremendous effect and I think today's hearing have that same 
potential effect on an equally critical issue.
    I think we have a rare opportunity, everybody has alluded 
to it, because of the Super Bowl and the two coaches who were 
in that game and one African-American coach now a Super Bowl 
champion. A lot of people were surprised that an event actually 
taking place in Black History Month made history in Black 
History Month. Today is the last day of Black History Month and 
the question is, will we remember what happened and the facts? 
Most people were surprised when I mentioned that in the history 
of the National Basketball Association, only one time have two 
African-American head coaches faced each other in an NBA 
championship. There has never been two in a World Series. There 
has never been two in the final men's championship or women's 
championship game in college basketball. There has never been 
two African-American head coaches in any BCS bowl game. This 
was a rare, rare event as has been noted. And the question is, 
do we remember the names of those coaches who broke those 
barriers? Probably not.
     Do we remember the dates when they broke the barriers? In 
fact, in the NBA it was Al Attles and K.C. Jones in the 1974 
NBA championship. Prior to that time, only five African-
Americans had ever been head coaches in the NBA. Since then, 46 
African-Americans have been head coaches. When Nolan 
Richardson, John Thompson and Tubby Smith led their teams to 
NCAA championships, prior to John Thompson's victory with 
Georgetown, there has been only a handful of African-American 
head coaches in the college ranks.
     Now with 25 percent of Division I basketball coaches being 
African-American, it is a completely different landscape. In 
the NBA and the NFL, we barely even notice when an African-
American is hired or fired because the doors seem so wide open. 
Obviously that is not the case in college football, and while 
we have spent a lot of time on college football, I also want to 
paint a picture of all of college sport because the 
restrictions are simply not limited in the area of football. We 
have in terms of student-athletes plenty of opportunity. And 
these are Divisions I, II and III, respectively, the statistics 
I will give you. Twenty-one percent of Division I student-
athletes are African-American, 18 percent in Division II, 7 
percent in Division III. We have more than a majority in 
college basketball and nearly a majority in college football. 
Nearly 44 percent of women playing college basketball are now 
African-American, an all-time record.
    When we look at the positions of who is running those 
sports, the picture changes, and that has been alluded to in 
cases so far. Every one of the Division I-A conference 
commissioners are white men. Every one of the Division I 
conference commissioners excluding the historically black 
colleges and universities are white. In the coaching ranks, we 
talked about basketball and plenty of opportunity. We have 
talked about football. College baseball, 4.1 percent of the 
head coaches in college baseball are people of color. Across 
three divisions, these are the percentage of whites holding 
those head coaching positions. Division I--this is all sports--
90.6 percent; Division II, 89.5 percent; Division III, 93.4 
percent. The percentage who hold those head coaching positions 
in college football are actually higher than they are for 
African-American head coaches in Divisions II and III. In fact, 
for me the most startling statistic, Congressmen, is that there 
are more women coaching men's teams in Division III than there 
are African-Americans coaching men's teams in Division III. 
There is a virtual lockout of opportunity for African-Americans 
in those coaching ranks. When we come to the college president 
ranks, you have heard already that 94 percent are African-
American. When we look at the athletic director ranks, 95 
percent, 94 percent, 93.2 percent at the three different levels 
are all held by white men. There is an impression that there 
are lots of people in the pipeline in the associate athletic 
director positions ready to step up. The percentages of whites 
controlling those positions are 91 percent, 89 percent and 92 
percent in the three respective divisions.
    It was alluded to by Congressman Terry before that the 
majority of assistant coaches at the coaching ranks in college 
football are African-American. The reality is that that is 
simply not true. There is not one division that has less than 
80 percent of the assistant coaches who are white and the 
opportunities just are not there across the board at all 
positions and I think what it calls for is tools that we simply 
don't have in college sport because whatever we have isn't 
working, and Dr. Brand has been a tremendous leader on this 
issue. He has done great things in the NCAA including who has 
brought into the NCAA but he hasn't had the ability as the NCAA 
president with the bully pulpit to really make significant 
changes, and I think that is quite obvious to me, and I know 
that there is resistance to it at the level of the NCAA, that 
the Rooney Rule has made a tremendous difference. We went from 
two to seven African-American head coaches in the National 
Football League. Most people forget that 2 years prior to the 
Rooney Rule, Bud Selig implemented a similar rule without a 
name and Major League Baseball went from three to nine managers 
of color in Major League Baseball and yet you heard Dr. Hill 
said that we actually have less head football coaches in 
college sport now than we had 10 years ago when we had eight 
Division I-A head coaches. The situation is worse now than it 
was 10 years ago. I think the Rooney Rule, I think title VII 
lawsuits, I think the whole series of some of the things that 
the NCAA is already doing will be helpful but I think the keys 
are getting more tools and having these congressional hearings 
are certainly a start in the right direction, and I thank you 
for listening.
    [The prepared statement of Mr. Lapchick appears at the 
conclusion of the hearing.]
    Mr. Rush. Coach Richardson.

  STATEMENT OF NOLAN RICHARDSON, FORMER COACH, UNIVERSITY OF 
                    ARKANSAS BASKETBALL TEAM

    Mr. Richardson. I want to thank the committee and 
Congressman Rush for inviting me up.
    On this day 5 years ago, the last day of Black History 
Month, I was fired on this day, so this is an anniversary date 
for me. I thought about it when I was sitting in the motel 
room. On this day 5 years ago I was sitting listening to two 
white males determine my fate in coaching athletics and 
basketball and being an assistant athletic director. It always 
has been my burden to prove that I suffered at the hands of 
discrimination while working at the University of Arkansas as 
the men's basketball coach. I believe that my cries for 
equality fell on deaf ears. My immediate superiors did not care 
about what I had to say. Of course, since they were the 
offenders, especially one, this did not stop me from continuing 
to point out the overt discrimination
    I had to endure during those 17 years. I had not received 
the greatest contract. The numerous bonuses that other coaches, 
which were basically white, particularly football, would make--
or have better contracts that I had when I had been working 
extremely hard having a building built at the University of 
Arkansas that seated almost 20,000 fans. Tickets all sold out, 
from 5,000 to 8,000 on the waiting list for tickets to 
Razorbacks basketball games. And yet, when it was contract 
time, my contract seemed to the hardest to fill or to complete 
year in and year out. I had to work extremely hard with an 
agent to try to bring that to a halt. I also in 1990 became 
assistant athletic director until 2000. That is 10 years. And 
in those 10 years, I never once was invited to a meeting and I 
was one of the assistant athletic directors. Not only was I an 
assistant athletic director at the University of Arkansas, I 
was also an assistant athletic director at Tulsa University 
where the young man that was in the Super Bowl was one of our 
players and football coach, Lovie Smith. I knew him back then. 
I was really proud of him. Prior to that, I was an athletic 
director at the junior college. So my life was to become a 
basketball coach and work my way up and to become an athletic 
director and yet I was stonewalled at the point of being a 
token for the University of Arkansas because of affirmative 
action. When asked the question how many African-Americans are 
on your staff, he could easily say yes, we got one and his name 
is Nolan Richardson, which I had no authority on anything. I 
didn't even once have a chance to be involved with decision-
making policies.
    After being fired, I wasn't even allowed to coach my team 
the last game of the season. I was approached by the athletic 
director and chancellor to bow out and say to the fans and to 
the people of Arkansas that I was tired and I wanted to spend 
more time with my family and they were to buy me out and give 
me a little job and pull the fans back together. They fired me 
because they say I made a statement that affected the fans but 
yet I am offered a job to keep my mouth shut and not be allowed 
to coach my team if I agreed not to do it, and of course, I did 
not agree. So there was no real equality in the terms of things 
that happened to Nolan Richardson on that campus as opposed to 
my white counterpart coaches. I made a statement and it was 
held against me and it didn't matter.
    The statement that I made is that my great-great-
grandparents came over on the boat; I did not. I expect to be 
treated differently than they were. I did make another 
statement that there was no one in that room that looked like 
me. Everyone, the media, everyone in Arkansas was lily-white so 
they had their own reasons for making me look like the bad guy. 
So when I sit and listen to the people that made these 
statements, there is no question, no question that in all the 
major universities, that the alums or boosters are in control. 
The only State that I really give creed to is Oklahoma, and the 
reason is because when I was at Tulsa University, I happened to 
be the only African-American in that area but by the time my 
team did what they did, Oklahoma had hired a football coach, 
Oklahoma University hired a basketball coach, Oklahoma State 
hired a African-American coach that we talked about, Bob 
Simmons, and they also hired a black coach in basketball. That 
is the only State that I know of that have shared their 
football and basketball with African-Americans. Thank you.
    [The prepared statement of Mr. Richardson appears at the 
conclusion of the hearing.]
    Mr. Rush. Mr. Weiser.

  STATEMENT OF TIM WEISER, DIRECTOR, DEPARTMENT OF ATHLETICS, 
                    KANSAS STATE UNIVERSITY

    Mr. Weiser. Chairman Rush, distinguished members of the 
subcommittee, good morning and thank you for allowing me this 
opportunity to address the issue of diversity in the positions 
of collegiate athletic directors and head coaches in Division 
I-A of NCAA.
    My name is Tim Weiser. I was asked to speak with you today 
specifically because the institution I represent as director of 
athletics, Kansas State University of the Big 12, is one of 
only six Division I-A athletics programs to have an African-
American in position as head football coach. Ron Prince was 
hired in December 2005 in place of the retiring Bill Snyder, 
who in his 17-year career was credited with what has been 
called the greatest turnaround in college football history. 
Coach Prince has quickly made his own mark producing a winning 
record and leading the Wildcats to the Texas Bowl on his first 
season.
    I believe I also can offer insight to this subcommittee on 
the topic before us because of my history of diversity in 
hiring head coaches as well as my position representing the 
Division I-A Athletic Directors Association as the incoming 
president. This background allows me within my personal 
experiences to reflect upon current and historical practices in 
our profession that are relevant to today's discussion.
    As I begin my 25th year in collegiate athletic 
administration, the past 20 as director of athletics at four 
different institutions, I have been blessed to be part of my 
achievements and milestones. In my first experience at Wichita 
State, I had the opportunity to work with Willie Jeffries, the 
first African-American head football coach in Division I-A 
history. I am certain that as a 24-year-old breaking into the 
athletic business that those experiences helped shape my 
understanding of the importance of diversity within an 
athletics department. Once I became an athletics director and 
was in a position of authority for hiring head coaches and 
staff, I selected the first ever African-American head 
basketball coach at both Eastern Michigan University and 
Colorado State University. Ron Prince is the first African-
American head football coach in Kansas State history.
    I believe it important for this subcommittee to understand 
that in each of these appointments, the decision I made was 
based on the belief of who I thought was the best fit for the 
particular institution and most qualified candidate for the 
job. This has always been the ultimate factor in my decision-
making process for hiring coaches.
    As the incoming president of Division I Athletic Directors 
Association, I am encouraged by what I see as an evolution 
within my profession. The business is changing rapidly. There 
may have been a time when an athletics director was a former 
coach or a favored son of the institution but as the 
enterprises have grown and the financial implications have 
become so significant, the job now requires skill sets and new 
ways of thinking involving leadership, counseling, personnel 
management, fundraising and much more.
    I believe the ultimate goal of an athletics director is to 
provide within the means of the particular institution the 
necessary support and resources to give each student-athlete 
his or her best opportunity to graduate with a meaningful 
degree and be adequately prepared for a successful life to 
become leaders and contributors to our Nation.
    Our profession is looked up now in large part like any 
other multimillion dollar business enterprise requiring 
progressive and inclusive processes that allow for growth in 
many ways that did not exist in years past. A constant in the 
role of athletics director, not unlike that of any CEO of a 
corporation, is the importance of making good decisions in the 
hiring of head coaches. We are defined in large part by the 
choices we made for our head football and basketball coaches 
because we are all seeking to discover that man or woman who 
can succeed in building a championship program.
    You have asked me here today because you are looking for 
answers as to why there aren't more than six African-American 
head football coaches at the highest level of the NCAA. 
Clearly, the growth in this area has been slow and I can only 
testify to my own actions. However, as I look at the sport of 
men's basketball and the growth in the number of African-
American head coaches in place, I am encouraged that similar 
progress can be achieved but steps and incentives for 
progressive leadership need to be put in place for us to move 
forward. It will take the guidance of Myles Brand, all 
university presidents and athletics directors and even head 
football coaches themselves to create an environment that 
expands the pool of qualified candidates and provide more 
networking opportunities to allow those individuals to become 
more widely known for consideration as has become the practice 
in the NCAA and the NFL. In fact, a better dialog between the 
college hierarchy and that of the NFL, which is tapping into 
the talent pool of minority collegiate coaches to allow for 
discussion of reciprocal arrangements regarding the 
interviewing and hiring processes currently in place could 
prove beneficial.
    Additionally, legislation to provide financial incentives 
for those NCAA member institutions to employment minority head 
coaches and athletic directors could be drafted by adoption by 
our organization. This diversity incentive would reward, not 
punish, those who seek to improve and grow the current pool of 
minority head coaches and athletics directors.
    I offer these as just a couple of examples of ways that we 
at the collegiate level can consider expanding opportunities 
for minority candidates as we contemplate a new direction for 
collegiate athletics.
    Thank you for the opportunity to offer my thoughts and 
share my experiences. I look forward to answering your 
questions.
    [The prepared statement of Mr. Weiser appears at the 
conclusion of the hearing.]
    Mr. Rush. I want to thank the witnesses. I will start off 
with some questions. Coach Richardson, I want to return to an 
area that you described. First of all, let me just ask you this 
question. I am concerned. Do you consider yourself blackballed 
in college athletics now because you are unemployed now as a 
college coach?
    Mr. Richardson. I have been told by the person that is an 
agent of mine that there is no question what is happening, that 
the fear of being outspoken and the truth is, people don't want 
to hear that, and from that standpoint, I may have some baggage 
that I may be carrying. So from that standpoint, yes.
    Mr. Rush. So not only do you have to be effective and 
efficient and good at being an expert at being a college coach, 
you also have to be quiet? Is that what you are saying?
    Mr. Richardson. Absolutely. I mean, you have to stay in 
your place, as they call it. The good old boy system is well 
and alive and I think it is on a lot of campuses and probably 
on most campuses. The opportunities for white coaches are 
always going to be there until there is--there was a question--
my train of thought was, there was a question that I wanted to 
address about why are the black kids are going and playing 
basketball because of course there are more black coaches, and 
I think it all happened with the John Thompson when he had 
Patrick Ewing making the statement that I am going to play for 
a black coach. Now, what would happen if the football players 
who are key players say I am going to play where there is a 
head black football coach? I think something would start to 
change. Something has to change and that is what it is all 
about. So when you talk about basketball, that is what had 
happened, and as the blacks begin to get more jobs, kids 
beginning to get an opportunity to go to those schools, let us 
face it, it is about money. It is a big business in Division I 
basketball and football. It is a corporation. It is about 
money. It is as simple as that.
    Mr. Rush. Thank you. Mr. Keith and Dr. Lapchick, your focus 
has been on and your efforts have been on a lot of public 
exposure and you might even--in your testimony you even used 
the word ``embarrassment'' as a means of galvanizing individual 
schools toward hiring more minorities. That might be a good 
approach, it might be effective, but my question is, is 
embarrassment powerful enough? What if some of the more 
entrenched interests who are there to promote for the status 
quo--is embarrassment enough to break through that 
entrenchment? Suppose they don't respond to public pressure or 
to public embarrassment? What else is there that we could--what 
other remedial efforts can we take?
    Mr. Lapchick. Well, I think it is pretty clear that 
embarrassment hasn't been effective enough based on the numbers 
that we talked about. I think that one of the things that we 
are discussing are title VII lawsuits. The cause of women in 
college sport was advanced enormously when women started 
bringing lawsuits against schools under title IX and won, and 
that hasn't happened yet on the issue of race and we think that 
that might be a powerful tool in the years ahead, and Floyd 
Keith and the Black Coaches Association are strongly 
considering that at this particular moment.
    Mr. Keith. I think exactly what Richard is saying. We felt 
when we initiated the hiring report card that maybe the 
pressure of public opinion would be enough to bring this issue 
to the forefront. We are going to continue to do the hiring 
report card regardless of whether the numbers increase or not 
because we think it has a role now in the consciousness of 
sport, particularly on the collegiate level. We are going to do 
that with athletics director searches. We are also going to do 
it with women's basketball. But at the truth and the heart of 
the matter is, the numbers aren't at a level where they should 
be and it hasn't gotten to the point where we don't talk about 
it anymore. It is title VII which we think may have teeth. I 
don't--you have got to have something that has some bite, and I 
am just not sure--because we will have a handful, like this 
year we are going to have almost 36 schools we are going to 
evaluate in football, and I know that for a fact our grades 
will come out in September. There is going to be five schools 
that just completely disregard the report card and they are 
just going to take the F and so they are basically saying well, 
we will take the F and then so be it. Well, that is not good 
enough. We have got to hold them further to accountability 
because some of them like in the old days say well, you can't 
eat here, so what, who is going to do anything about it, you 
not eating here in the 1960's. So we go back to the same issue. 
I think it is a good tool but I don't think it has got enough.
    Mr. Rush. Thank you. Mr. Stearns.
    Mr. Stearns. Thank you. I think, Dr. Hill, you had 
indicated that the statistics show that we are actually in the 
last 10 year we are going backwards in Division II and III and 
actually Division I schools for African-American coaches. Isn't 
that what you said?
    Mr. Hill. Yes, sir, Division I, we have fewer coaches today 
than we had 10 years ago.
    Mr. Stearns. OK. And what about Division II and III? Maybe 
Mr. Lapchick can tell me that. In Division II and III, what Dr. 
Hill referred to for Division I, is that true for Division II 
and Division III for male African-Americans, the numbers of 
coaches going down?
    Mr. Lapchick. There has been virtually no opportunity 
historically in Division III whatsoever, so it has been pretty 
flat there. I think there is a single African-American head 
coach in Division III and that is a high number. In Division 
II, it has been four, five, six, over the years, kind of steady 
and constant, but the reality is that if you look at all the 
statistics, the opportunities are worse in Division III, a 
little bit better in Division II and a little bit better in 
Division I but they are not good in any of them.
    Mr. Stearns. Is that because there are less choices maybe, 
or not? How would you attribute that fact that Division III is 
the worst?
    Mr. Lapchick. I think people aren't scrutinizing it as much 
as they are Division I.
    Mr. Stearns. It is easier for a coach, isn't it, to be 
successful in Division III than in Division I? It is not as 
competitive, so----
    Mr. Lapchick. Well, those coaches would tell you it is 
pretty competitive at that level but the opportunities--I mean, 
I think the reality is that whatever embarrassment effect there 
has been at Division I with the black coaches hiring report 
card and the racial and gender report card has never been 
applied to Division II and Division III. We haven't really 
looked at it so----
    Mr. Stearns. OK. So we haven't had the spotlight on it?
    Mr. Lapchick. Right.
    Mr. Stearns. Dr. Hill?
    Mr. Hill. I was going to say, if you take, for example--and 
I said this for a while is that many of your candidates should 
come from the lower division colleges as a training ground and 
you take example I-AA, you say, well, you haven't had Division 
I experience. Well, take Jim Tressel. He came from Youngstown 
State. He came from I-AA. Two years later, he went to the 
national championship. So that should be tremendous training 
grounds, which Division III should come from the high school 
ranks. But the problem is, the recruiting if you go and examine 
the demographics, you will see the same thing taking place in 
high school. You have an urban community which I have 
referenced book that looks like HBCUs. Then you go to the 
suburbs. You go to the suburbs, you still have one African-
American coach on that staff. You go to urban America, then you 
have predominantly black coaches.
    Mr. Stearns. Well, now, Mr. Lapchick, I want to move 
towards the women, African-American women. We haven't talked 
about them at all. Dr. Hill has mentioned the statistics in 
terms of Division I, II and III. What do the statistics look 
like for women? Are they even lower than males?
    Mr. Lapchick. As your question implies, it is a double 
layer of separation for African-American women, and one of the 
new initiatives of the Black Coaches Association this year is 
to do a report card on women's college basketball where nearly 
44 percent of the student-athletes are African-American but the 
number of African-American women head coaches has actually been 
decreasing over the last 4 years and is now down to about 7\1/
2\ percent.
    Mr. Stearns. And is this true in all sports or just one 
particular sport?
    Mr. Lapchick. There are very few African-American women 
head coaches in any sports in any of the divisions. They are 
smaller numbers than African-American men even.
    Mr. Stearns. Our concern obviously is that this statistic 
is getting worse as time goes on in Division I, II and III as 
on the whole and it is also even worse for women. So that is 
really another important thing, Mr. Chairman, that we should be 
concerned about is not just the men but the women and 
particularly in some sports you have indicated, Dr. Lapchick, 
that most of the participants are African-Americans and yet 
there are no African-American coaches. Is that what you are 
saying?
    Mr. Lapchick. There are a few African-American coaches but 
very few, and a significant percentage of African-American 
student-athletes. I think on the gender issue, it is also worth 
pointing out that 35 years after title IX, more men coach 
women's teams in college sport today than women coach women's 
teams.
    Mr. Stearns. Now, why do you think that is?
    Mr. Lapchick. I think that men in some cases have gone for 
the opportunities to help them to move up to get a men's job. 
In the case of women's basketball, it has become pretty big 
time now so it is a prominent position now so the men are going 
for it and athletics directors who are overwhelmingly men are 
picking a lot of male coaches.
    Mr. Stearns. So what you are saying is, a male coach is 
competing with a female coach and sometimes a male coach is 
beating out the white as well as the African-American and that 
is because of the selection process?
    Mr. Richardson. Yes. There are way more white male coaches 
in the female game than there are black females coaching as 
head coaches, way more. We did--I worked with the BCA 6 years 
ago on the SAT and ACT testing and found that gender with the 
women--our black women do not coach volleyball and they were 
doing more things for gender equity but it wasn't helping the 
black female because our girls are track, probably basketball. 
So how are you helping them? You are making more jobs 
availability for men, white, and female, white women. It is 
just as simple as that.
    Mr. Stearns. Well, Mr. Chairman, I think the point I am 
trying to make is that we have concentrated this morning on the 
male African-American but I think we should also be aware that 
the female African-American is also seeing the same kind of 
statistics in the Division I, II and III and that it is 
disheartening to think that they are even lower than the men 
and this has been getting worse across the board. So with that, 
I will yield back the balance of my time.
    Mr. Rush. Thank you. Mr. Ross.
    Mr. Ross. Let me begin with Dr. Hill, and I apologize for 
running in and out. I have got one markup in the Science 
Committee and two different hearings in two different 
subcommittees of Energy and Commerce Committee all at the same 
time. No wonder we have problems in America if this is how we 
run Congress, so forgive me for moving around so much.
    Dr. Hill, you did a dissertation on this and you have 
probably put more thought into this than most in this room. Is 
this something that--and I agree that clearly if you look at 
the numbers, the numbers don't lie and there is clearly a 
discrepancy--not a discrepancy but there is clearly a need, if 
you will, to have more African-Americans involved in leadership 
and coaching positions within the NCAA. Do you do that through 
public awareness? And of course a lot of press are here today. 
Do you do that through legislation? As we conclude Black 
History Month and we look through the historical achievements 
and accomplishments that we have--if you look at the time that 
we have endured in America and the progress that we have made, 
clearly this is an example of how, as some would say, while we 
have done a lot, there is still a lot that needs to be done. 
How do we take it to the next level? Is it through social 
awareness, PR campaign or through legislation?
    Mr. Hill. I think maybe, Congressman Ross, a little bit of 
both but I think if you look at the hiring situation, you will 
see the influence of boosters in the hiring process. College 
athletics, unlike NFL where you have the owner making the 
decision, you have an athletics director worried about maybe a 
construction worker who didn't even go to college but became a 
millionaire and has a lot of money and has some influence, and 
if this happened in recruiting, you can't have boosters get 
involved in NCAA with the recruiting mandates that are set up. 
And so what do you do? You make boosters aware of the 
recruiting process. I think we need to move forward in making 
boosters aware of what diversity looks like. By doing that, we 
make hay in the fact that they can say ``oh, I see''. Many 
boosters, when they think of what a head coach is supposed to 
look like, they see a white, middle-aged male and so what you 
have to do, you have to make a concerted effort to overcome 
that subconscious mindset of what a head football coach looks 
like. And so until we can get them to change the lenses of 
their camera and say maybe a head coach may not look like me, 
and we referenced, the success of basketball, success breeds 
change and when you have John Thompson, Tubby Smith, Nolan 
Richardson and people going to be successful, then you say we 
want to do that and recruiting can enhance that by having 
athletes decide hey, we want to go make a difference. This is 
really still a civil rights issue.
    If you look at the heart of what we are talking about 
today, this is 2007. In 1994, Cedrick Dempsey, who was then 
executive president of NCAA, claimed that we need to redouble 
our efforts to ensure equity for all coaches. That is 1994. In 
2007, February 28, we are having a congressional hearing 
because we have gone backwards. Now, we can keep making public 
awareness if we like, we can keep talking about it, and when 
you have the hurricane season that takes place in December and 
January during the hiring, then you don't hear anything else 
about it. We are here today because of two African-American 
coaches going to the Super Bowl. Thank God for that. But what 
we have to do, we have to put something in place. Title VII, 
title IX, something has to mandate that we move forward to add 
corrective measures or a game plan that will ensure equity for 
all coaches regardless of color, male or female.
    Mr. Ross. In my remaining seconds, Coach Richardson, I 
would love to get your thoughts on that. By the way, I am a 
huge fans of yours so I am glad to have you here today. Dr. 
Hill made it very clear when you asked what can we do, it has 
got to become law. I mean, we are not going anywhere until 
there is law made and that is when progress begins. In 1994 I 
was here. John Thompson and I were going to walk out of a 
basketball game. Here we are, as he said, 2007 and we got six, 
seven football coaches. I mean, that has got to be ridiculous 
in two matters. The first of it is, what about the youngster 
that is playing football; when he looks on the sideline he 
never sees anyone that looks like him. Why should he pursue a 
career as a football coach? You have got to look at people, and 
that is why I am so proud of the basketball moving because now 
a young man that plays basketball who wants to be a coach can 
say hey, Coach Richardson, Coach Thompson, Coach Tubby--I mean, 
he can point at people that have made it. How can the football 
player point at people? It is just like the quarterback. I 
wanted to be a quarterback in high school but I wasn't smart 
enough. They called the plays. What do you mean I wasn't smart 
enough? I could handle the ball like anybody else could. And 
now, it is not a question about a quarterback because the plays 
a lot of times are called in. I mean, have you ever seen a 
football player that it is a kicker that is African-American? I 
have seen one maybe or two. Why? Have you ever seen an extra 
point kicker? Why? Until law is made to change things, that is 
the only way we are going to progress. That is how I see it. In 
my lifetime, that is the only way it is going to go because 
then you take the boosters out of it. You have got to take the 
boosters out of the equation because no matter what you say, 
there is still cheating going on today on college campuses.
    Mr. Rush. Mr. Burgess, 5 minutes.
    Mr. Burgess. Thank you, Mr. Rush, and just like my 
colleague from Arkansas, let me apologize for being in and out. 
There is always a lot that goes on in this town on a Wednesday 
and today is no exception.
    I guess my question was partly answered by Mr. Ross's last 
line of questioning is, where do we go from here as a 
legislative body? We can certainly hold hearings all day long, 
and we do, and we can hold hearings year in and year out, and 
we do, but is there a point--and Coach, I guess you said until 
the law is made, progress cannot be expected to occur. Progress 
is not going to occur on its own. It will have to be 
encouraged. And I think I understood where you said that that 
encouragement would have to come from the legislative process 
and I have not talked to the chairman about any legislative 
that he has contemplated or has pending and I would certainly 
offer my services to work with the subcommittee chairman on 
that issue but let me just hear from Coach Richardson and Dr. 
Hill what elements, what principles, what words need to be in 
that legislative or what do the principles need to be around 
which that legislation is crafted?
    Mr. Hill. Around access, equitable access. That is all that 
anyone really wants, the desire to say I have a son, 6 years 
old, and he was on the football field with me every day when I 
was practicing and he told me one day, Dad, I want to be a head 
football coach too, and that hit me in my heart because I 
didn't want him to have to experience those type of things that 
he would go through. I want him to have the same opportunities, 
have access, and what we have to do in trying to get the access 
comes from various--we have to change the mindset and that is 
why I think that education of our boosters and everyone 
involved to realize that head football coaches or women coaches 
may not look like you, and I think if you look at the progress 
in women's sports, particularly the NCAA, the Final Four with 
the women, that didn't just happen without some legislation. 
You have Pat Summerlin today because we mandated that the 
women's jobs are equitable to the men's jobs. That is why if 
you look at why we have more men coaching and want to go coach 
women's ball, because the salaries by title IX dictate that we 
have to make sure that we treat everyone fairly. That is the 
only type of legislation I think that we want is that you treat 
everybody fairly and that when you have 23 job openings this 
year, OK, and here is what is in the heart of coaches because I 
speak as one. You look at that and say man, I am not really a 
candidate not because of my qualifications but because of the 
color of my skin. How are you going to mandate that the color 
of your skin is taken out of the equation? Well, when you still 
have people making the hiring involved in doing that, it is 
difficult without mandating something in there, and that is 
what the Rooney Rule actually does and it exposes the hiring 
committee to break stereotypes that they don't even think about 
because they say man, this guy is sharp. There are a lot of 
sharp guys out there.
    Mr. Burgess. My follow-up is that do you think something 
crafted along the lines of the Rooney Rule or the unwritten 
Selig rule should in fact be one of those principles that we 
embody in the legislation?
    Mr. Hill. Well, according to--they said it is 76 percent of 
the coaches. That is what Mr. Keith has been doing. What we 
have to do is make sure that we are having some more 
involvement in the process and a diverse pool of constituents 
that sit around the table that looks like a representation of 
your student body. Let me give you an example. If I move to 
Japan and I don't speak Japanese but if I was going to start a 
business in Japan, I would make sure that my management team 
was representative of my laborers because I don't understand 
the culture. Maybe not. And so we could get maximum 
effectiveness out of the workers, and when you look at the 
hiring process today, it blows your mind because if you saw 23 
openings and you felt like your resume was qualified, you have 
gone to NFL academies, you have gone to all the things to do 
and when you come there and say man, I know I am not going to 
get a job. So what do black coaches do now? They jump to the 
NFL. It is brain drain. We are losing our best talent out of 
collegiate football because we are not promoting through 
access, give the coaches access, and something has to be done 
because my brother Keith has been working, Dr. Lapchick. The 
numbers have been up there. In fact, I started this because of 
Dr. Lapchick in 1998 as a graduate assistant during a library 
assignment. I read his article in 1998. This is 2007 and his 
article still is being published and we are still talking about 
the issue. So I think 25 years--the civil rights laws were 
passed in 1964. It is 2007, and I think we need to move forward 
in making sure that this great country that we live in provides 
equal access for everyone.
    Mr. Burgess. Thank you. Coach Richardson.
    Mr. Richardson. I couldn't add much more to what Dr. Hill 
has just said. I just feel that in order to achieve anything, 
it is like the two things that I don't like and that is 
prostitution and slavery. You have to make laws to stop it. And 
to have slavery to be stopped, there had to be a law made or 
else it continues. I just believe that there has got to be a 
law made to change the field so we can play on a level field a 
little bit better, and he brought out some great points. Like 
he said, you have just got to get the people together, get some 
thoughts, put some real clean, good thoughts to the decision-
making. There is no way it is going to change.
    Mr. Burgess. What about the issue of brain drain that Dr. 
Hill brought up? Are we risking depopulating the smaller 
colleges of qualified African-American minority mentors and 
coaches for those kids if the same thing happens at the NCAA 
level that happened at the professional level and everybody 
moves that one level up?
    Mr. Keith. Can I answer that question? There is a lot of 
young talented people out there and they are going to filter 
through. You are not going to rob anybody from anywhere. 
Everybody is trying to advance. I mean, there is no law about 
trying to advance. I don't penalize any of the coaches that 
have been diligently working through the process in collegiate 
football moving to the NFL simply because they are paid more 
than most coaches that are working in that system and the NCAA 
right now is losing their talent because when you turn on the 
TV, my friend, you are seeing coordinators of color in the NFL, 
you are seeing head coaches. When they started the season this 
year, seven head coaches in 32 opportunities. Congressman 
Burgess, there were 36 opportunities to be a head coach this 
year on the collegiate level and two African-Americans were 
hired on the collegiate ranks. I recommended Mike Tomlin for 
three head coaching jobs on the collegiate ranks. He is now the 
head coach of the Pittsburgh Steelers. He couldn't get--he 
wasn't contacted for two of them. Now, you tell me what is 
wrong. That is why we are losing them. You have got to wake up. 
We are losing the people. There is young people out there with 
great talent. They are going to fill in to all of those jobs. 
They want to coach.
    Mr. Burgess. Unfortunately, I missed Dr. Brand when he was 
here. Could this not be done internally within the NCAA today 
without waiting on us to make a legislation?
    Mr. Keith. They can't mandate----
    Mr. Burgess. I have only been here a couple years but I do 
know this place moves slowly.
    Mr. Keith. They can't mandate--there is three levels of the 
NCAA and I am not going to speak for Dr. Brand but I respect 
him. There is the executive office in Indianapolis. The 
student-athletes are the NCAA as well. But individual 
institutions hire. They hire the ADs, they hire the presidents. 
They make those decisions. The NCAA itself, the executive 
office, cannot mandate to those places who to hire. The process 
is really simple. When people ask me, and I have to answer this 
question probably 300 times a year, is why is the NFL ahead of 
the collegiate ranks in hiring. It is pretty simple. There is 
less people to deal with. And the other formula is follow the 
money. There is nobody that understands that better than you 
folks. Follow the money and you will find out the answers.
    The general manager and the owner are the two people that 
are making the decision in the NFL. That is the money. Now, if 
they get it, then the hiring becomes simple because if they are 
inclusive and they have diversity in their thinking, you don't 
have to reeducate them. They don't need some diversity program. 
It is business and they understand that it is good business. On 
the collegiate ranks, you have got the athletics director, you 
have got the search committee. You also have the executive 
search committee that is paid $35,000 to go out and execute the 
hire. You have got the president. You also have got the board 
of trustees who has to stamp their approval and then you have 
got the booster who is given the financial. So the money trail 
is spinning out there. There is so many other people that are 
decision-makers that are involved in the process. It is 
complicated on the collegiate level, and until we decide that 
accountability becomes part of that, we are making the 
knowledge, we are telling everybody what the issue is but there 
is political and financial influence and that is the elephant 
that is standing in the room. You have got to hold them 
accountable, and how are you going to do that? Well, hopefully 
if we can't do it with title VII, then let us make a rule so we 
can make this something we don't have to deal with 10 years 
from now so that my son comes in here and has to sit before 
you; he is not still talking about this.
    Mr. Burgess. Well, I think that is the salient point. When 
I think of all the kids back home in the 26th district of Texas 
who are probably not watching this because it is not on TV, but 
nevertheless, it is their future that we are talking about 
and----
    Mr. Keith. That is exactly right.
    Mr. Burgess. It is a pastime for many of us but it is their 
future that we are talking about.
    Coach Richardson, I just have to say, I am not an Arkansan 
but I am related by marriage, and you had no bigger fan than my 
father-in-law, and if I went to Arkansas during college 
basketball season, I knew what we were doing on Sunday 
afternoons and it wasn't fishing, so thank you, sir.
    Mr. Richardson. Thank you.
    Mr. Rush. I am going to ask a final question here because I 
want to get another point of view here, and Mr. Weiser, you 
have been an athletic director but you have had a rather 
unusual history of hiring qualified minorities for head 
coaching positions, and in your statement to this committee you 
said your hires are based upon the fact that they are the most 
qualified in the market. You also cite athletic directors as 
being largely equivalent to corporation CEOs but you have come 
up with a solution or one remedy, your diversity incentive 
remedy. Can you expound more on that and can you also in your 
answer to my question, can you give the members of this 
committee some idea of what should be the focus of our 
attention if in fact we consider legislative remedies for this 
ongoing systemic barrier to fairness and equality in college 
athletics.
    Mr. Weiser. Well, yes. I certainly, Congressman, can give 
you my perspective and I will tell you that first of all, each 
campus has its different culture and I have heard several 
people refer to the booster influence and I can tell you that I 
have worked at institutions where that is a factor and I work 
at an institution now where that is not a factor, and I think 
the presidents have a lot to do with making sure that the 
business of the university is conducted by the university and 
not the outside influences. Now, that also has to speak to how 
that university is governed. Some of the institutions have 
their own governing boards. Others have boards that govern a 
number of institutions like it is at Kansas State. And so I 
think that has an impact on it.
     But my point and what Myles and I talked about earlier, if 
76 percent of the job openings these past 5 years have involved 
minority candidates, then to me trying to grow that pool isn't 
the issue. It is getting institutions to take that chance and 
hire those coaches that are qualified to do that. Somebody 
referred to the risk-averse nature of athletic directors and I 
will tell you that that is a very real world but it is not a 
risk at least from my perspective on one's racial nature. It is 
not that issue. It is hiring somebody who you think is going to 
be successful in the job because despite all this talk about 
search committees and their involvement, search committees 
don't get fired; athletic directors get fired and they get 
fired because those coaches don't succeed in those two 
positions primarily. That is who we are defined by, those 
decisions. So I think when athletic directors recognize 
somebody that is going to be capable of succeeding, they are 
going to make that decision, and in my case hiring Ron Prince, 
had he not been a coordinator, I wouldn't have considered him. 
In fact, my bias going into every search is, I want to hire a 
sitting head coach because I think there is less risk. You know 
what you have.
     Well, if you have got six sitting head coaches, you 
already are behind the 8 ball, so to speak. You can't get those 
numbers to grow if they are small in that way so it has got to 
come from those coordinators that are considered out there and 
those candidates that we get to know when it is not a search 
time because when the search takes place, the BCA evaluates us 
on how long that search goes. The longer, the better, because 
that allows more people to be considered. But the media and our 
fans consider a longer search a misdirected search, that 
something must be wrong because those jobs that are hired 
instantly, those are the ADs and the searches that are the most 
successful. I don't believe that and I believe if you go into a 
search already knowing who your candidate is, you are not going 
to have an inclusive process. You are not going to allow others 
to be involved.
    So back to the diversity incentive. I think a better 
approach is to find ways to encourage and reward those 
institutions that don't interview but hire. That is really what 
we are talking about. We are trying to find a way to get more 
African-American head coaches in football and basketball, and 
that is where the focus should be, not on the interviews.
    Mr. Rush. I want to really thank this panel for your 
critical and very, very important testimony. I also want to 
just assure you that this is the first hearing. We don't intend 
to have hearings ad infinitum. We intend to deal with this 
issue and deal with a resolution. With your participation, with 
your involvement, I really open this process to you. I invite 
your commentary. I invite your input. As we proceed during the 
course of these legislative endeavors, I really want your 
participation and your comment. I am committed myself to trying 
to resolve this problem.
    I think this is a problem that has languished far too long. 
It is a problem that needs to be corrected. It is a problem 
that needs to be exposed so that the American people will 
actually see what goes in the area of college athletics, 
particularly at the athletic director, the head coaching 
levels, and also really at the athlete's level. I am concerned 
about student-athletes also. But this is just the first foray 
into this area of investigation and area of inquiry.
    Last, I just want to indicate, I think there was previous 
testimony that said when you get a general manager and owner 
together, they can make great decisions. There are still some 
rare instances where that is not the case. I would just take 
this opportunity to express to my favorite team, the Chicago 
Bears, that they need to show Lovie some love and get that 
contract signed right away because it is a parallel situation, 
I believe, that we have heard here in a lot of different ways.
    Thank you so very much, and please, it is an open 
invitation. Whatever suggestions or input that you might want 
to share with this committee in the future, do not hesitate to 
contact us. Thank you, and this record will remain open for 30 
days for additional input on the official record. Thank you so 
much, and God bless you.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T5220.001
    
    [GRAPHIC] [TIFF OMITTED] T5220.002
    
    [GRAPHIC] [TIFF OMITTED] T5220.003
    
    [GRAPHIC] [TIFF OMITTED] T5220.004
    
    [GRAPHIC] [TIFF OMITTED] T5220.005
    
    [GRAPHIC] [TIFF OMITTED] T5220.006
    
    [GRAPHIC] [TIFF OMITTED] T5220.007
    
    [GRAPHIC] [TIFF OMITTED] T5220.008
    
    [GRAPHIC] [TIFF OMITTED] T5220.009
    
    [GRAPHIC] [TIFF OMITTED] T5220.010
    
    [GRAPHIC] [TIFF OMITTED] T5220.011
    
    [GRAPHIC] [TIFF OMITTED] T5220.012
    
    [GRAPHIC] [TIFF OMITTED] T5220.013
    
    [GRAPHIC] [TIFF OMITTED] T5220.014
    
    [GRAPHIC] [TIFF OMITTED] T5220.015
    
    [GRAPHIC] [TIFF OMITTED] T5220.016
    
    [GRAPHIC] [TIFF OMITTED] T5220.017
    
    [GRAPHIC] [TIFF OMITTED] T5220.018
    
    [GRAPHIC] [TIFF OMITTED] T5220.019
    
    [GRAPHIC] [TIFF OMITTED] T5220.020
    
    [GRAPHIC] [TIFF OMITTED] T5220.021
    
    [GRAPHIC] [TIFF OMITTED] T5220.022
    
    [GRAPHIC] [TIFF OMITTED] T5220.023
    
    [GRAPHIC] [TIFF OMITTED] T5220.024
    
    [GRAPHIC] [TIFF OMITTED] T5220.025
    
    [GRAPHIC] [TIFF OMITTED] T5220.026
    
    [GRAPHIC] [TIFF OMITTED] T5220.027
    
    [GRAPHIC] [TIFF OMITTED] T5220.028
    
    [GRAPHIC] [TIFF OMITTED] T5220.029
    
    [GRAPHIC] [TIFF OMITTED] T5220.030
    
    [GRAPHIC] [TIFF OMITTED] T5220.031
    
    [GRAPHIC] [TIFF OMITTED] T5220.032
    
    [GRAPHIC] [TIFF OMITTED] T5220.033
    
    [GRAPHIC] [TIFF OMITTED] T5220.034
    
    [GRAPHIC] [TIFF OMITTED] T5220.035
    
    [GRAPHIC] [TIFF OMITTED] T5220.036
    
    [GRAPHIC] [TIFF OMITTED] T5220.037
    
    [GRAPHIC] [TIFF OMITTED] T5220.038
    
    [GRAPHIC] [TIFF OMITTED] T5220.039
    
    [GRAPHIC] [TIFF OMITTED] T5220.040
    
    [GRAPHIC] [TIFF OMITTED] T5220.041
    
    [GRAPHIC] [TIFF OMITTED] T5220.042
    
    [GRAPHIC] [TIFF OMITTED] T5220.043
    
    [GRAPHIC] [TIFF OMITTED] T5220.044
    
    [GRAPHIC] [TIFF OMITTED] T5220.045
    
    [GRAPHIC] [TIFF OMITTED] T5220.046
    
    [GRAPHIC] [TIFF OMITTED] T5220.047
    
    [GRAPHIC] [TIFF OMITTED] T5220.048
    
    [GRAPHIC] [TIFF OMITTED] T5220.049
    
    [GRAPHIC] [TIFF OMITTED] T5220.050
    
    [GRAPHIC] [TIFF OMITTED] T5220.051
    
    [GRAPHIC] [TIFF OMITTED] T5220.052
    
    [GRAPHIC] [TIFF OMITTED] T5220.053
    
    [GRAPHIC] [TIFF OMITTED] T5220.054
    
    [GRAPHIC] [TIFF OMITTED] T5220.055
    
    [GRAPHIC] [TIFF OMITTED] T5220.056
    
    [GRAPHIC] [TIFF OMITTED] T5220.057
    
    [GRAPHIC] [TIFF OMITTED] T5220.058
    
    [GRAPHIC] [TIFF OMITTED] T5220.059
    
    [GRAPHIC] [TIFF OMITTED] T5220.060
    
    [GRAPHIC] [TIFF OMITTED] T5220.061
    
    [GRAPHIC] [TIFF OMITTED] T5220.062
    
    [GRAPHIC] [TIFF OMITTED] T5220.063
    
    [GRAPHIC] [TIFF OMITTED] T5220.064
    
    [GRAPHIC] [TIFF OMITTED] T5220.065
    
    [GRAPHIC] [TIFF OMITTED] T5220.066
    
    [GRAPHIC] [TIFF OMITTED] T5220.067
    
    [GRAPHIC] [TIFF OMITTED] T5220.068
    
    [GRAPHIC] [TIFF OMITTED] T5220.069
    
    [GRAPHIC] [TIFF OMITTED] T5220.070
    
    [GRAPHIC] [TIFF OMITTED] T5220.071
    
    [GRAPHIC] [TIFF OMITTED] T5220.072
    
    [GRAPHIC] [TIFF OMITTED] T5220.073
    
    [GRAPHIC] [TIFF OMITTED] T5220.074
    
    [GRAPHIC] [TIFF OMITTED] T5220.075
    

</pre></body></html>
